                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE
                            OF INSPECTOR GENERAL 
                      

                      



                     American Recovery and
                     Reinvestment Act Site Visit
                     of the Botanic Garden of
                     Western Pennsylvania
                     Report No. 12-R-0321                    March 8, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors: 	                              Jean Bloom
                                                    Leah Nikaidoh
                                                    Kevin Collins
                                                    Stephanie Wake




Abbreviations

CFR             Code of Federal Regulations
CWSRF           Clean Water State Revolving Fund
EPA             U.S. Environmental Protection Agency
IUP             Intended Use Plan
OIG             Office of Inspector General
PA DEP          Pennsylvania Department of Environmental Protection
Pennvest        Pennsylvania Infrastructure Investment Authority


Cover photo:	     Mashuda mining activities on the site of the future Botanic Garden.
                  (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-R-0321
                                                                                                         March 8, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review              American Recovery and Reinvestment Act Site Visit
The U.S. Environmental              of the Botanic Garden of Western Pennsylvania
Protection Agency Office of
Inspector General conducts site      What We Found
visits of American Recovery
and Reinvestment Act of 2009        The Botanic Garden used Recovery Act funds to construct ponds that are not
(Recovery Act) clean water          being used for their stated purpose. The Botanic Garden’s funding agreement
projects. The purpose of this       with Pennvest states that the Botanic Garden will build irrigation ponds to
review was to determine             collect, store, and recycle water for future irrigation needs. However, the ponds
whether amounts claimed by          are being used as sediment ponds to capture runoff from a mining reclamation
the Botanic Garden of Western       operation. Therefore, amounts claimed by the Botanic Garden for building the
Pennsylvania are eligible and       ponds are not eligible or allowable project costs under the Recovery Act and the
allowable in accordance with        terms and conditions of the funding agreement between the Botanic Garden and
the Recovery Act and the terms      Pennvest.
of the funding agreement.
                                    Additionally, the Botanic Garden is operating, through a contractor, a for-profit
Background                          surface mining reclamation operation that will generate revenue for the Botanic
                                    Garden. The Recovery Act funds were used to construct required mine sediment
The Botanic Garden received         ponds that allow the mine to operate. The Botanic Garden’s funding agreement
$1,368,894 with 100 percent         with Pennvest contains an addendum that states that the recipient must comply
federal loan forgiveness from       with all relevant federal regulations. The Code of Federal Regulations (CFR), at
the Pennsylvania Infrastructure     2 CFR 215.24(b)(3), requires all federal assistance agreement award recipients to
Investment Authority                deduct program income from the total cost of a project or program funded with
(Pennvest) under the Clean          federal monies. The revenue generated by the mining activity would be program
Water State Revolving Fund          income that must be used to offset the Recovery Act-funded project costs. By not
program. The purpose of the         offsetting the project costs with the program income, Recovery Act funds are
project, funded with Recovery       reducing mining operation costs and thereby increasing the Botanic Garden’s
Act funds under the Green           potential mining revenue.
Project Reserve, was to install
three permanent irrigation           What We Recommend
ponds to supply the Botanic
Garden’s future irrigation          We recommend that the Regional Administrator, Region 3, recover from
needs.                              Pennvest all Recovery Act funds, totaling $1,368,894, awarded to the Botanic
                                    Garden of Western Pennsylvania. We also recommend preventing the continued
                                    use of Clean Water State Revolving Fund funding for this project. If the full
                                    Recovery Act funds are not recovered, we recommend that the Regional
For further information, contact    Administrator reduce the project costs to be funded by the Recovery Act by the
our Office of Congressional and
Public Affairs at (202) 566-2391.
                                    amount of program income earned by the Botanic Garden from mining
                                    operations and recover the amount earned in program income. Region 3, the
The full report is at:              Botanic Garden, and the commonwealth of Pennsylvania did not agree with the
www.epa.gov/oig/reports/2012/       findings and recommendations in the report.
20120308-12-R-0321.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                          March 8, 2012

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the
          Botanic Garden of Western Pennsylvania
          Report No. 12-R-0321


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Shawn M. Garvin
               Regional Administrator, Region 3


This is our report on the subject site visit conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). The report summarizes the
results of our site visit of the Botanic Garden of Western Pennsylvania.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site visit was to determine
whether amounts claimed by the Botanic Garden are eligible and allowable in accordance with
the Recovery Act and the terms of the funding agreement. The Botanic Garden of Western
Pennsylvania received $1,368,894 in Recovery Act funds with 100 percent federal loan
forgiveness from the Pennsylvania Infrastructure Investment Authority under the Clean Water
State Revolving Fund program.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 120 calendar days, or by July 6, 2012. You should include a corrective action plan
for agreed-upon actions, including milestone dates. Your response will be posted on the OIG’s
public website, along with our memorandum commenting on your response. Your response
should be provided as an Adobe PDF file that complies with the accessibility requirements of
Section 508 of the Rehabilitation Act of 1973, as amended. The final response should not contain
data that you do not want to be released to the public; if your response contains such data, you
should identify the data for redaction or removal. This report will be available at
http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Robert Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act                                                                                     12-R-0321
Site Visit of the Botanic Garden of Western Pennsylvania




                                   Table of Contents

Chapters
   1     Introduction .......................................................................................................       1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Scope and Methodology ..............................................................................               7     


   2     Botanic Garden Project Costs Should Be Recovered ....................................                                      8


                 Recovery Act Funds Used to Construct Sediment Ponds for
                    Mining Activity ........................................................................................        8

                 Conclusion...................................................................................................      9     

                 Recommendations ......................................................................................            10     

                 Botanic Garden, Region 3, Pennvest, and PA DEP Comments
                    and OIG Evaluation ................................................................................            10 


   3	    Botanic Garden Project Costs Must Be Reduced by

         Potential Program Income.................................................................................                 11 


                 Botanic Garden Not Complying With Relevant Regulations........................                                    11 

                 Conclusion...................................................................................................     13     

                 Recommendation ........................................................................................           13     

                 Botanic Garden, Region 3, Pennvest, and PA DEP Comments
                    and OIG Evaluation ................................................................................            13 


   Status of Recommendations and Potential Monetary Benefits..............................                                         15 




Appendices
   A     Botanic Garden Timeline of Events..................................................................                       16 


   B     Botanic Garden Response to Draft Report and OIG Evaluation....................                                            17


   C     EPA Region 3 Response to Draft Report and OIG Evaluation .......................                                          32 


   D     Pennvest Response to Draft Report and OIG Evaluation...............................                                       39 


   E     PA DEP Response to Draft Report and OIG Evaluation .................................                                      45 


   F     Distribution .........................................................................................................    50

                                  Chapter 1

                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA) Office of Inspector General
            (OIG) conducted this review to determine whether amounts claimed by the Botanic
            Garden of Western Pennsylvania are eligible and allowable in accordance with the
            American Recovery and Reinvestment Act of 2009 (Recovery Act) and the terms
            and conditions of its funding agreement with the Pennsylvania Infrastructure
            Investment Authority (Pennvest).

Background
            The President signed the Recovery Act on February 17, 2009. The purpose of the
            Recovery Act as it applies to EPA is to preserve and create jobs, promote economic
            recovery, and invest in environmental protection and other infrastructure that will
            provide long-term economic benefits. The Recovery Act provided EPA with
            $4 billion for the Clean Water State Revolving Fund (CWSRF) to provide funds for
            upgrading wastewater treatment systems.

            The Recovery Act required states to allocate at least 20 percent of their funding to
            the Green Project Reserve. Four types of projects are eligible for Green Project
            Reserve funding: green infrastructure, water efficiency improvements, energy
            efficiency improvements, and environmentally innovative activities. Even though
            these types of projects have always been eligible for CWSRF financing, the
            20 percent requirement was intended to accelerate the incorporation of green and
            sustainable concepts into wastewater and drinking water projects.

            Pennvest is empowered by Pennsylvania commonwealth law and the Pennsylvania
            Infrastructure Investment Authority Act 16 of 1988 to administer and finance the
            CWSRF in the state pursuant to the Water Quality Act of 1987. Pennvest is also
            empowered to administer Recovery Act funds in the commonwealth of Pennsylvania.

            The Pennsylvania Department of Environmental Protection (PA DEP), under a
            memorandum of understanding with Pennvest dated April 23, 1997, provides
            technical and advisory services to Pennvest regarding the implementation and
            administration of the sewer, stormwater, and water infrastructure funding programs
            authorized by the Pennsylvania Infrastructure Investment Authority Act, the Safe
            Drinking Water Act Amendments of 1996, and the Water Quality Act of 1987.
            PA DEP provides technical assistance to Pennvest for Recovery Act-funded clean
            water and drinking water projects.




12-R-0321                                                                                     1
            Botanic Garden of Western Pennsylvania

            The Botanic Garden of Western Pennsylvania was founded in 1988 as “a regional,
            professional horticulture society” with goals “to promote and encourage horticulture
            and botany, the conservation of natural resources and the establishment and
            operation of a botanical garden in western Pennsylvania.” In 1991, the Botanic
            Garden became a 501(c)(3) nonprofit corporation. In the 1990s, the group began to
            look for a suitable site on which to build a garden. In 1998, the Botanic Garden
            signed a 99-year renewable lease with Allegheny County for 432 acres of land in the
            southwestern corner of Settler’s Cabin County Park located near Pittsburgh,
            Pennsylvania. The leased land was the site of significant coal mining in the 1920s.

            During 2001–2003, the Botanic Garden worked with MTR Landscape Architects to
            design a master plan of the Botanic Garden. In 2003, a water quality study found that
            the future Botanic Garden’s main water source was so polluted with acid mine
            discharge from the abandoned mining that it could not be used for irrigation. Acid
            mine discharge occurs when iron pyrite in the mine is exposed to oxygen and water,
            producing salts and heavy metals including iron, manganese, nickel, and cobalt.
            Further, in 2004, Hurricane Ivan dumped 6 inches of rain on the future Botanic
            Garden site, overflowing the abandoned mines and resulting in flooding and
            landslides. The site needed reclamation before a garden could be developed.
            (See appendix A for a detailed timeline of Botanic Garden events.)

            Reclamation Efforts

            The Botanic Garden contracted with Mashuda Corporation in February 2008 to
            reclaim the abandoned mine site. Under the contract, Mashuda is required to extract
            the maximum amount of coal possible from the site, handle the sale of the coal, and
            collect all proceeds up to the lump sum price of $7.9 million. All coal proceeds in
            excess of this lump sum go to the Botanic Garden. The estimated value of coal to be
            sold is $9.1 million, which would result in an estimated profit of $1.2 million for the
            Botanic Garden. The contract specifies that Mashuda will conduct the following
            reclamation activities:

               	 Planning, permitting, and engineering design and completion of all site
                  preparation; and access, reclamation, and construction grading activities to
                  obtain and conform with the Botanic Garden’s final land configuration

               	 Removal of the Pittsburgh No. 8 coal seam horizons and other carbonaceous
                  material from the project area to facilitate reclamation and with the intent to
                  eliminate the sources of existing acid mine discharge

               	 Obtaining all government approvals that Mashuda considers necessary for it
                  to mine the site




12-R-0321                                                                                      2
                 Mashuda submitted a mining permit application to PA DEP on September 22, 2008.
                 The proposed attachments to the permit, identified as modules, state that mining
                 activities will include building six sediment ponds to capture runoff and provide
                 retention time to allow for the settling of eroded particles before releasing water
                 from the mine site. These ponds required a National Pollutant Discharge Elimination
                 System permit, which Mashuda acquired in August 2008.1 Mashuda’s contract also
                 included building five adjacent treatment ponds to treat the acid mine discharge
                 collected in the sediment ponds to meet the water quality criteria established in the
                 permit. On August 28, 2008, the Botanic Garden sent a letter to PA DEP and
                 Mashuda requesting that the sediment ponds constructed on the property remain
                 permanently on the site for the Botanic Garden’s future use. On August 10, 2009,
                 Mashuda received authorization from PA DEP to mine at the Botanic Garden site.

                 Recovery Act Funding for Botanic Garden

                 On May 29, 2009, the Botanic Garden submitted an application for Recovery Act
                 funds to Pennvest. In July 2009, EPA Region 3 received the following documents
                 from Pennvest and PA DEP, respectively, both of which included the Botanic
                 Garden project:

                     	 Intended Use Plan (IUP) listing the projects that would receive Recovery Act
                        funds through the CWSRF program

                     	 Green Project Reserve Checklist of CWSRF projects that would receive
                        Recovery Act funds

                 Region 3 was responsible for reviewing the projects proposed for Recovery Act
                 funding by Pennvest. Neither the IUP nor the Green Project Reserve Checklist
                 provided to Region 3 mentioned mining activities associated with the Botanic
                 Garden project. Instead, the project description states, “construction of 3 irrigation
                 ponds to collect, store, and recycle 2.5 million gallons of water for irrigation of the
                 botanic garden.” The Botanic Garden project was evaluated by PA DEP, as required
                 for all projects on the Green Project Reserve, and scored zero points out of 100 on its
                 evaluation. EPA Region 3’s response to our draft report states that this score is not
                 indicative of the environmental benefits associated with the project.

                 In September 2009, the Botanic Garden issued a change order to Mashuda, removing
                 two sediment ponds from the contract and decreasing the contract amount by
                 $30,000. In the Botanic Garden’s application for Recovery Act funds, the project
                 narrative stated that the Botanic Garden is “remediating former deep mining
                 conditions” and “grading of the site occurs in conjunction with that cleanup.” The
                 application also stated that the Botanic Garden is:



1
 The National Pollutant Discharge Elimination System permit program controls water pollution by regulating point
sources that discharge pollutants into waters of the United States.


12-R-0321                                                                                                      3
                   Planning to construct 3 sediment basins that will be converted to
                   permanent irrigation storage facilities at that time to supply the future
                   irrigation needs of the gardens.

            Regardless of PA DEP’s zero-point rating of the project, Pennvest awarded a
            CWSRF grant to the Botanic Garden under the Recovery Act as a “green
            infrastructure” project of the Green Project Reserve. The funding agreement was
            signed on November 10, 2009, for $1,368,894 with 100 percent federal loan
            forgiveness. According to the funding agreement, the scope of the project is to:

                   Install three permanent irrigation ponds that will collect, store and
                   recycle 2.5 million gallons of water to supply the garden’s future
                   irrigation needs. A culvert will be installed that will provide
                   permanent access to the garden.

            Although a surface mining permit is included in the list of permits in exhibit F of the
            funding agreement with Pennvest, nowhere in the funding agreement, or in the
            description provided to EPA Region 3, does it state that ponds will be used for
            mining purposes as the Botanic Garden stated in its application. The project
            narrative in the application says “remediating former deep mining conditions,” not
            for “mining purposes.” The funding agreement states that construction of the project
            was to be completed by November 2011. The completion date has been extended to
            November 2012.

            Pond Construction

            The Botanic Garden put out a competitive bid for the construction of three sediment
            ponds in September 2009, and two contractors bid on the project: Mashuda and
            WG Land Company, LLC. The Botanic Garden signed a contract with WG Land,
            the low bidder, on November 2, 2009. According to WG Land’s contract with the
            Botanic Garden, the project consisted of two phases. Phase I of the project is
            construction of the three sediment ponds (Ponds 2, 5, and 6). This phase also
            included the construction of a culvert to allow access to the site. Phase II of the
            project is conversion of the ponds for irrigation purposes, including the purchase of
            $523,000 of 60-inch pipe that would be buried in Pond 6 and covered over with
            earth.

            The contract between WG Land and the Botanic Garden for this Recovery Act-
            funded project stated that ponds constructed will initially be used as surface water
            and sediment control structures by Mashuda, as required by surface mining
            reclamation activities. The contract stipulated that, when no longer needed for
            reclamation activities, WG Land will construct drainage control systems, related
            underground water piping and storage systems, and a stream-crossing culvert. This
            description is similar to that in the Botanic Garden’s application for Recovery Act
            funding. However, it is more specific than the scope of work language in the funding
            agreement and in the documentation provided to EPA Region 3, which does not


12-R-0321                                                                                      4
            include that the ponds will initially be used for mining purposes. The contract also
            states that WG Land will complete construction of the entire project within
            24 months of receiving the notice to proceed.

            WG Land received authorization to proceed with the project from Pennvest on
            November 10, 2009, and began construction soon after. WG Land completed phase I
            of the project to construct the ponds that were needed for surface mining reclamation
            activities. The ponds were constructed to specifications, and all three ponds
            (Ponds 2, 5, and 6) were certified by Hiser Engineering and approved for use in
            Mashuda’s mining operation by PA DEP on October 20, 2010.

            Figure 1: Ponds 2 (left) and 5




            Source: EPA OIG photos taken during site inspection, May 17, 2011.

            Figure 2: Pond 6




            Source: EPA OIG photos taken during site inspection, May 17, 2011.

            Although WG Land completed work on phase I to specification, it ran into a number
            of problems that resulted in change orders to the Botanic Garden for additional
            funding. WG Land also had some financial problems that affected its ability to pay
            fuel companies. In a letter to the Botanic Garden president and project manager, the
            Botanic Garden’s attorney stated that WG Land had not paid fuel companies in a
            direct contravention of the contract. As a result, in November 2010, the Botanic
            Garden issued a change order to WG Land, eliminating it from phase II (converting

12-R-0321                                                                                     5
            the sediment ponds to permanent irrigation ponds) of the Recovery Act-funded
            project, worth $593,000. WG Land voluntarily accepted the change order. Currently,
            no firm is under contract to complete phase II of the Recovery Act-funded project.

            MTR Landscape Architects developed a master plan for the Botanic Garden in 2003
            (figure 3). The plan did not include irrigation ponds. The OIG superimposed the
            ponds on the master plan to demonstrate where they are located in relation to other
            features in the garden plan. Pond 6 will eventually be covered up and converted to
            underground water storage, and will not be a visible pond incorporated into the plan.
            Ponds 2 and 5 will remain on the grounds and be incorporated into the final design
            of the Botanic Garden.

            Figure 3: Botanic Garden master plan with Recovery Act-funded ponds
            superimposed by the OIG




            Source: Botanic Garden of Western Pennsylvania website. Ponds superimposed by the
            OIG.

            Mashuda did not begin mining until the ponds were built, as they were necessary to
            capture runoff from the mining. Mashuda estimated that the mining was 10 to
            15 percent complete as of May 2011. In addition, Mashuda estimated that it would
            complete the mining in approximately 18 to 24 months, and it would be at least
            3 years before reclamation is complete and the site can be transformed into a botanic
            garden.




12-R-0321                                                                                       6
            Figure 4: Mashuda mining activities at the Botanic Garden site




            Source: EPA OIG photos taken during site inspection, May 17, 2011.


Scope and Methodology
            We conducted our audit work from May 2011 to September 2011 in accordance with
            generally accepted government auditing standards. Those standards require that we
            plan and perform our review to obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on our objectives. We
            believe that the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our objective.

            To address our objective, we reviewed relevant background information on the
            recipient, the Botanic Garden of Western Pennsylvania. We analyzed the Botanic
            Garden’s application for Recovery Act funds and its funding agreement with
            Pennvest. We also analyzed all relevant contracts and agreements the Botanic
            Garden had with subcontractors, including but not limited to Mashuda Corporation
            and WG Land Company, LLC. We reviewed any funds the Botanic Garden received
            from other sources, such as local communities and other federal or state agencies.
            We examined all payment requests and invoices to determine whether costs claimed
            under the CWSRF Recovery Act funding agreement were eligible and allowable
            costs to be claimed under the project.

            We conducted a site visit of the Botanic Garden on May 17, 2011, currently
            functioning as Mashuda’s surface mining reclamation, in Pittsburgh, Pennsylvania.
            During our site visit, we interviewed Botanic Garden officials as well as officials
            from all subcontractors. We also interviewed EPA Region 3, Pennvest, and PA DEP
            representatives.




12-R-0321                                                                                  7
                                   Chapter 2

   Botanic Garden Project Costs Should Be Recovered

            The Botanic Garden used Recovery Act funds to construct ponds that are not being
            used for their stated purpose. The Botanic Garden’s funding agreement with
            Pennvest for CWSRF Recovery Act funds states that the Botanic Garden will build
            irrigation ponds to collect, store, and recycle water for future irrigation needs.
            However, the ponds are being used as sediment ponds to capture runoff for
            Mashuda’s mining and reclamation operation. Therefore, amounts claimed by the
            Botanic Garden from Pennvest for building the ponds are not eligible or allowable
            project costs to be funded under the Recovery Act and the terms and conditions of
            the funding agreement.

Recovery Act Funds Used to Construct Sediment Ponds for Mining
Activity
            The funding agreement states, in exhibit C:

                   The Botanic Garden of Western PA will install three permanent
                   irrigation ponds that will collect, store and recycle 2.5 million gallons
                   of water to supply the garden’s future irrigation needs.

            The agreement also includes installation of a culvert to provide permanent access to
            the garden.

            WG Land’s contract with the Botanic Garden states that the irrigation pond project
            will be conducted in conjunction with surface mining and reclamation activities.
            Further, the contract states that ponds:

                   Will initially be utilized as surface water and sediment control
                   structures by Mashuda . . . and as such the construction activities are
                   considered “surface mining activities” under applicable law.

            The Botanic Garden entered into a contract with WG Land to build sediment ponds
            that will eventually be turned into irrigation ponds. However, construction of
            sediment ponds is not the purpose for which Recovery Act funds were provided
            under the funding agreement. The ponds are currently being used to capture runoff
            from surface mining and reclamation activities operated by Mashuda, and are not
            being used for their stated purpose under the funding agreement. The information
            included in WG Land’s contract about initial use as sediment ponds was not
            included in the funding agreement, nor was it presented to EPA Region 3 in the
            project description or IUP provided by Pennvest. When interviewed in February
            2011, the Region 3 CWSRF project officer was unaware that the site is a mining
            reclamation site and that the Botanic Garden does not currently exist.


12-R-0321                                                                                      8
            Additionally, we do not know when, if ever, the ponds will be used for their stated
            purpose, due to the following:

               	 The ponds must be treated for acid mine discharge before they can be used
                  for irrigation purposes.

               	 The ponds cannot be used for their stated purpose until Mashuda has
                  completed its reclamation activities, which Mashuda estimates will take at
                  least 3 more years. In addition, under Mashuda’s mining contract, it can back
                  out of the project at any time if the price of coal falls or if the project
                  becomes economically unfeasible.

               	 Currently, no firm is under contract to complete phase II of the Recovery
                  Act-funded project. The Botanic Garden issued a change order to WG Land,
                  removing it from phase II due to financial problems. The Botanic Garden
                  stated that it would like Mashuda, as the other bidder, to complete the work.
                  However, no contract currently exists, and Mashuda representatives stated in
                  our interview that Mashuda would not undertake the project until reclamation
                  is complete.

            Based on these issues, the Recovery Act-funded project was not completed by
            November 2011, as stated in the funding agreement. The completion date has been
            extended to November 2012. Further, the Botanic Garden may not be able to
            complete phase II of the project.

            Because the ponds are not being used for their intended purpose under the funding
            agreement, we believe that the amounts claimed as of September 27, 2011, by the
            Botanic Garden from Pennvest through the Recovery Act, totaling $736,596, are not
            eligible or allowable project costs to be funded under the CWSRF program.
            Additionally, we believe that the remaining funding of $632,298 may not be used for
            its intended purpose under the funding agreement, the Botanic Garden may not be
            able to complete phase II of the project, and the project as currently constructed is
            not being used for its intended purpose.

Conclusion
            The Botanic Garden received Recovery Act funding to build three irrigation ponds.
            The Botanic Garden contracted with WG Land to build sediment ponds for
            Mashuda’s mining reclamation activities that will eventually be turned into irrigation
            ponds. These ponds are not currently being used for their stated purpose under the
            funding agreement between the Botanic Garden and Pennvest, and whether the
            ponds will ever be used for irrigation is uncertain. Therefore, these costs are not
            eligible or allowable under the Recovery Act and the terms and conditions of the
            funding agreement, and they should be recovered.



12-R-0321                                                                                    9
Recommendations
            We recommend that the Regional Administrator, Region 3:

                   1.	 Recover from Pennvest all Recovery Act funds awarded to the Botanic
                       Garden of Western Pennsylvania totaling $1,368,894.

                   2.	 Prevent the continued use of CWSRF funding for this project.

Botanic Garden, Region 3, Pennvest, and PA DEP Comments and OIG
Evaluation
            We received responses to our draft report from the Botanic Garden, Region 3,
            Pennvest, and PA DEP. Each commenter disagreed with our finding and
            corresponding recommendations. However, they did not provide any information
            that would cause the OIG to change its finding and recommendations.

            Region 3 offered a suggestion to replace our two recommendations with one, and
            asserted that the fundamental issue was that the project description in the IUP was
            not complete. We believe this suggestion is inappropriate as EPA cannot change
            existing funding documentation to retroactively validate the approval of the project.
            We believe that our current recommendations, as written, are the proper course of
            action.

            We have included the full responses of Botanic Garden, Region 3, Pennvest,
            and PA DEP, along with the OIG’s evaluation, in appendices B, C, D, and E,
            respectively.




12-R-0321                                                                                    10
                                   Chapter 3

            Botanic Garden Project Costs Must Be 

            Reduced by Potential Program Income

            The Botanic Garden is operating a for-profit surface mining reclamation operation
            through Mashuda that will generate revenue for the Botanic Garden. The Botanic
            Garden used EPA Recovery Act funds to construct mine sediment ponds required
            for the mine to operate. The Botanic Garden’s funding agreement with Pennvest
            contains an addendum that states that the recipient must comply with all relevant
            federal regulations. The Code of Federal Regulations (CFR), at 2 CFR 215.24(b)(3),
            requires that program income be deducted from the total cost of a project or program
            funded. The revenue generated by the mining is program income, and the Botanic
            Garden does not have a provision for offsetting the Recovery Act-funded project
            costs. By not offsetting the project costs with the program income, Recovery Act
            funds are subsidizing the Botanic Garden’s mining operation and thereby increasing
            its potential mining revenue.

Botanic Garden Not Complying With Relevant Regulations
            The Botanic Garden’s funding agreement with Pennvest contains an addendum on
            Recovery Act requirements. The addendum states, in item 19, that the contractor
            must comply with all applicable laws, regulations, and program guidance, including
            Office of Management and Budget Circular A-110 on Administrative Requirements
            and Office of Management and Budget Circular A-122 on Cost Principles, codified
            in 2 CFR Part 215 and 2 CFR Part 230, respectively. Further, the addendum defines
            a contractor as:

                   Any person, including, but not limited to, a bidder, offeror, loan
                   recipient, grantee, or subgrantee, who has furnished or seeks to
                   furnish goods, supplies, services, or leased space or who has
                   performed or seeks to perform construction activity under contract,
                   subcontract, grant, or subgrant with the Commonwealth.…

            The Botanic Garden is a contractor because it seeks to perform, under the terms of
            the funding agreement from the commonwealth, construction activity—in the form
            of the three ponds—through a subcontractor and therefore must comply with all
            applicable laws, regulations, and program guidance. Regardless of whether the
            subject award is considered a grant or a loan, the signed funding agreement includes
            an addendum stating that all contractors must comply with the relevant regulations.
            Title 2 CFR 215.24 provides for the treatment of program income earned by entities
            and is applicable to the funding agreement. Program income is defined as gross
            income earned by the recipient that is directly generated by a supported activity or
            earned as a result of the award. Program income includes, but is not limited to,
            income from fees for services performed, the use or rental of real or personal


12-R-0321                                                                                   11
            property acquired under federally funded projects, the sale of commodities or items
            fabricated under an award, license fees and royalties on patents and copyrights, and
            interest on loans made with award funds.

            The Botanic Garden contracted with Mashuda to reclaim the abandoned coal mine.
            Under the $7.9 million contract, all excess coal proceeds will go to the Botanic
            Garden. Therefore, the Botanic Garden is operating a for-profit mining reclamation
            that will generate revenue for the Botanic Garden. To start and continue mining
            operations, Mashuda was required by the mining permit to design and construct
            sediment ponds that would catch runoff produced by the mining operation. Three of
            these sediment ponds were constructed by WG Land and paid for with EPA-
            provided Recovery Act funds under the Botanic Garden’s funding agreement with
            Pennvest.

            When WG Land finished construction of the first phase of the project, the ponds
            were certified by PA DEP. The pond certifications indicate that Mashuda could not
            begin mining until Ponds 2, 5, and 6 were installed per the specifications listed in the
            original Mashuda mining permit. The sediment ponds are an essential part of the
            ongoing surface mining reclamation, and revenue generated from the coal proceeds
            would be considered program income under the definitions in 2 CFR 215.24.

            Specifically, 2 CFR 215.24 addresses three ways in which loan or grant recipients
            must account for program income related to projects financed in whole or in part
            with federal funds:

               	 Title 2 CFR 215.24(b)(1) states that program income shall be added to funds
                  committed to the project by the federal awarding agency and recipient, and
                  used to further eligible project objectives. This provision may apply if the
                  cost of building the irrigation ponds exceeds the existing budget. However,
                  there is no indication of budget overruns at this time. In fact, since no
                  contractor has been selected for phase II of the project, the costs to complete
                  the project are unknown.

               	 Title 2 CFR 215.24(b)(2) states that program income shall be used to finance
                  the nonfederal share of the project. However, because the Botanic Garden
                  received funding with 100 percent federal loan forgiveness, there are no
                  matching costs that would result in a nonfederal share of the project.

               	 Title 2 CFR 215.24(b)(3) requires a recipient to deduct program income from
                  the total cost of a project or program funded with federal monies. This
                  regulation applies and directs that the Botanic Garden must account for
                  program income.

            Title 2 CFR 215.24(b)(3) is the appropriate option because the Botanic Garden
            applied for, obtained, and used Recovery Act funds to reduce the cost of its unrelated
            mining reclamation. Reducing the costs of its mining reclamation will increase the


12-R-0321                                                                                      12
            profits the Botanic Garden receives through the coal proceeds. Therefore, Recovery
            Act funding will increase Botanic Garden profits.

            As of April 26, 2011, the Botanic Garden estimated that Mashuda had excavated and
            shipped 13,190 tons of coal to a contracted buyer at a cash value of $728,493. The
            estimated value of the coal that will be extracted and sold from the mining operation
            is $9,132,964. Based on Mashuda’s mining contract of $7,926,980, the Botanic
            Garden could realize an estimated profit of $1.2 million. Reducing the expenses of a
            profit-making enterprise is not a reasonable use of federal funds. Therefore, the
            Botanic Garden should deduct program income from the total project cost as
            described in 2 CFR 215.24(b)(3).

Conclusion
            The Botanic Garden will generate revenue through Mashuda’s mining reclamation.
            The sediment ponds built with Recovery Act funds are integral to mining activities.
            Therefore, mining revenues should be considered program income under federal
            regulations, and program income must be deducted from the total cost of the project.
            However, the Botanic Garden did not identify the potential coal proceeds as program
            income. By not offsetting the project costs with the program income, EPA Recovery
            Act funds are subsidizing the Botanic Garden’s mining operation and increasing its
            potential mining revenue.

Recommendation
            We recommend that the Regional Administrator, Region 3:

                   3. 	 If the full Recovery Act funds of $1,368,894 are not recovered, reduce
                        the project costs to be funded by the Recovery Act by the amount of
                        program income earned by the Botanic Garden from mining operations
                        and recover the amount earned in program income.

Botanic Garden, Region 3, Pennvest, and PA DEP Comments and OIG
Evaluation

            We received responses to our draft report from the Botanic Garden, Region 3,
            Pennvest, and PA DEP. All respondents disagreed with our finding and
            corresponding recommendation. All responses stated that the program income
            requirements of 2 CFR 215.24 do not apply to the Botanic Garden for various
            reasons. As a result, we conducted an additional review of regulations and the
            funding agreement. We did not find any additional information to change our finding
            that the Botanic Garden must account for program income generated from the
            mining reclamation activities. Regardless of whether the funding is considered a
            grant or a loan, the signed funding agreement includes an addendum stating that all
            contractors must comply with the relevant regulations. If 2 CRF 215.24 does not


12-R-0321                                                                                   13
            apply to the Botanic Garden, it should not have been included in the funding
            agreement.

            We have included the full responses of Botanic Garden, Region 3, Pennvest, and
            PA DEP, along with the OIG’s evaluation, in appendices B, C, D, and E,
            respectively.




12-R-0321                                                                                    14
                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                           Status1      Action Official           Date      Amount      Amount

     1       10     Recover from Pennvest all Recovery Act funds             U       Regional Administrator,                $1,369
                    awarded to the Botanic Garden of Western                               Region 3
                    Pennsylvania totaling $1,368,894.

     2       10     Prevent the continued use of CWSRF funding for           U       Regional Administrator,
                    this project.                                                          Region 3

     3       13     If the full Recovery Act funds of $1,368,894 are not     U       Regional Administrator,
                    recovered, reduce the project costs to be funded by                    Region 3
                    the Recovery Act by the amount of program
                    income earned by the Botanic Garden from mining
                    operations and recover the amount earned in
                    program income.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-R-0321                                                                                                                                      15
                                                                                   Appendix A

                  Botanic Garden Timeline of Events
 
    1988     The Horticulture Society of Western Pennsylvania (now Pittsburgh Botanic Garden) 
             was founded. 
              
    1998     Botanic Garden signs a 99‐year renewable lease with Allegheny County for land in 
             Settler’s Cabin County Park, located near Pittsburgh, Pennsylvania. 
              
    2003     MTR Landscape Architects completes a comprehensive master plan of the garden. 
  
 02/2008     Mashuda signs a $7,926,980 mining contract to reclaim the site.  
              
 08/2008     Botanic Garden requests that sediment ponds constructed for mining remain on the 
             property permanently. 
              
 09/2008     Mashuda submits a mining permit application to PA DEP. 
              
 05/2009     Botanic Garden submits application for Recovery Act funding to Pennvest. 
              
 07/2009     EPA Region 3 receives Intended Use Plan and Green Project Reserve Checklist.  
              
 08/2009     Mashuda receives authorization from PA DEP to mine on the Botanic Garden site. 
              
 09/2009	    Botanic Garden issues a change order to Mashuda, removing two sediment ponds. 
              
 09/2009	    Botanic Garden put out a request for proposal for three sediment ponds to be funded 
             by the Recovery Act. 
              
 11/2009	    Botanic Garden is awarded $1,368,894 of Recovery Act Funds with 100 percent 
             federal loan forgiveness to install three permanent irrigation ponds and an entry 
             culvert. 
 11/2009      
             Botanic Garden signs a contract with WG Land as the low bidder for the Recovery 
             Act‐funded project. 
 10/2010      
             WG Land completes phase I of the Recovery Act‐funded project and has Ponds 2, 5, 
             and 6 certified. 
 10/2010      
             Mashuda begins mining. 




12-R-0321                                                                                   16
                                                                                       Appendix B

         Botanic Garden Response to Draft Report and
                       OIG Evaluation


                                        MEMORANDUM


 TO:           John Trefry                                Shawn M. Garvin
               United States EPA Headquarters             Regional Administrator
               Ariel Rios Building                        United States Environmental
               1200 Pennsylvania Avenue, N.W.                 Protection
               Agency Mail Code 2421T                     Region III
               Washington, DC 20460                       1650 Arch Street
                                                          Philadelphia, PA 19103-2029

 FROM:         Pittsburgh Botanic Garden, Inc.
               A Not-for-Profit 501(c)(3) Organization

 DATE:         October 31, 2011

 RE:           Response to Draft Site Visit Report: American Recovery and
               Reinvestment Act Site Visit of the Botanic Garden of Western
               Pennsylvania
               Project No. OA-FY11-A-0218


 I.     INTRODUCTION
         The Pittsburgh Botanic Garden, Inc. (“PBG”), a not-for-profit 501(c)(3) organization
 based in Pittsburgh, PA submits this response to the U.S. Environmental Protection Agency,
 Office of Inspector General (“OIG”), Draft Site Visit Report associated with the American
 Recovery and Reinvestment Act (“ARRA”) funded project in Settlers Cabin County Park,
 Allegheny County, Pennsylvania. As a charitable organization, relying largely on donations and
 grants, PBG is familiar with the utility of audits by granting agencies, organizations and donors.
 Having recently been audited by the Commonwealth of Pennsylvania with no substantive
 concerns regarding the use of ARRA funds to design and construct permanent stormwater
 collection, storage and irrigation facilities for garden development, PBG’s Board of Directors,
 staff and professionals were very disappointed by the conclusions derived by OIG.
 Compounding the disappointment is OIG’s very narrow perspective of a project that has been


12-R-0321                                                                                          17
 under development for over 15 years. 1 By focusing on a snapshot view and a temporary aspect of
 site development, the OIG glossed over a wide spectrum of environmental site studies, pollution
 abatement technical requirements, regulatory support, environmental enhancement and the
 permanent benefits that the project provides.

         Most surprising is the fact that the primary federal agency with jurisdiction concerning
 environmental protection, pollution remediation, brownfields recycling and sustainable
 development fails to recognize the nature of the project whose essence is to abate perpetual acid
 mine drainage (“AMD”) into the waters of the United States, remediate dangerous abandoned
 mine land conditions resulting from the region’s industrial legacy and allow unproductive and
 dangerous lands to be recycled for sustainable economic, recreational and aesthetic benefits. The
 following discussions provide information that leaves no doubt that the development of long term
 stormwater collection and irrigation facilities, as proposed and constructed by PBG, supported and
 approved by the Pennsylvania Department of Environmental Protection (“PADEP”), and funded
 by Pennvest utilizing ARRA funds is consistent with ARRA, goals and objectives including
 Readiness to Proceed, Job Creation, and the promotion of Water Conservation “Green”
 infrastructure projects.The following discussions provide information that leaves no doubt that the
 development of long term stormwater collection and irrigation facilities, as proposed and
 constructed by PBG, supported and approved by the Pennsylvania Department of Environmental
 Protection (“PADEP”), and funded by Pennvest utilizing ARRA funds is consistent with ARRA,
 goals and objectives including Readiness to Proceed, Job Creation, and the promotion of Water
 Conservation “Green” infrastructure projects.


 II.     BACKGROUND RELEVANT TO PROJECT
         A.       Abandoned Mine Lands - Vision for Reclamation
                PBG has been in the process of developing a world-class botanic garden in
       Allegheny County, Pennsylvania since 1988, when it was founded as the “Horticultural
       Society of Western Pennsylvania.” It received tax-exempt status as a 501(c)(3) not-for­
       profit organization from the Internal Revenue Service in May 1991. Between 1991 and 1998,
       its members searched for an appropriate site to develop the Botanic Garden. In 1998, the

 1
   It is noted that the report cover feature chosen by OIG to represent the project does not illustrate the actual
 permanent impoundments designed and constructed under the Pennvest ARRA project, but rather tends to support
 OIG’s apparent position that the project is a coal mine.




12-R-0321                                                                                                        18
 PBG selected a 280 acre site in Settlers Cabin County Park and entered into a 99-year renewable
 lease with Allegheny County, which was amended in 2006.2 Notwithstanding that the property is
 located in a public park, the site unfortunately had been extensively coal mined by both
 underground and surface mining activities in the early and mid 1900s and meets the definition of
 “abandoned mine lands” (“AML”) under federal and state law.3 Abandoned mine land features
 associated with this property include acid mine drainage (“AMD”) discharges that pollute on-site
 and off-site streams, unreclaimed highwalls, unstable steep slopes, and significant mine
 subsidence conditions. As discussed below, PBG recognized that these conditions were
 inconsistent with the transformation of the site into a botanic garden and have been pursuing
 reclamation options for a decade.
          In evaluating the property for garden development in 2002, PBG obtained funding from
 PA’s Nonpoint Source Program (funded by the EPA through section 319 of the Clean Water Act)
 to investigate the AMD problem. PBG engaged respected environmental and engineering
 consultants, GAI Consultants and Hedin Environmental, to complete a survey of the AMD
 discharges associated with the property and to provide pollution treatment recommendations. The
 consultants reported that the AMD problem was severe (100,000 GPD of water with pH 3 and high
 concentrations of toxic metals). PBG concluded that pollution treatment would be economically
 infeasible.




Acid mine drainage at the Pittsburgh Botanic Garden site. The water in the background averages
77 gpm with 3.0 pH, 39 mg/L aluminum, 10 mg/L iron, and 1 mg/L manganese.

 2
   The Amended and Restated Lease was negotiated in large part due to the discovery of the magnitude of the
 abandoned mine features and consequent delay in developing the Botanic Garden.
 3
     See 30 U.S.C. § 1234; 30 C.F.R. § 700.5 and § 874.12; 52 P.S. §§ 5116, 5119.


12-R-0321                                                                                                     19
        Concurrent with the AMD investigation, other AML problems were inventoried. Surface
 mining in the 1950’s and 60’s left sinuous band of highwalls and steep unstable and landslide-prone
 slopes that needed reclamation before the public could be invited to the site. In many areas, ground
 above the deep mine had collapsed creating open subsidence holes into the mine voids below. The
 potential for more subsidence throughout the property is ever-present as it has been completely
 undermined. In September 2004, western PA was subjected to record rainfall when hurricanes
 Francis and Ivan passed through the region during one eight day period. At the unreclaimed site with
 its unmanaged non-point surface and mine water flows, the access road was washed out, trees on
 unstable mine out-slopes were lost, and a landslide occurred. AMD flows increased to unprecedented
 levels and were sustained at high rates well into 2005. PBG determined that comprehensive
 reclamation was mandatory if the garden was to proceed.




       Subsidence hole located at the Pittsburgh Botanic Garden site. The subsidence is in the

       approximate location of a future parking lot.


        The challenge to PBG has been to find the most cost-effective method to remediate these
 problems while not losing the vision of garden development. In pursuing economically feasible
 alternatives to reclaim the site, PBG learned that many AML sites have been reclaimed by private
 companies who partially finance the reclamation by recovering and marketing coal encountered
 during reclamation. PBG subsequently decided that this concept was the only economically feasible
 option available to eliminate the wide spread AML problems while simultaneously advancing the
 development of the botanic garden.
12-R-0321                                                                                          20
        B.      Irrigation Requirements: Optimizing Stormwater Management
         A botanic garden has significant and sustainable irrigation needs. Following the hurricanes of

 2004, the water pollution, landslides and subsidence conditions became more pronounced, and PBG
 recognized that complete site reclamation was necessary for a botanic garden free of the conditions
 and risks associated with the abandoned mines. Associated with that analysis was a review of
 potential alternative irrigation water sources. The use of AMD is precluded due to its toxicity, and
 developing and constructing water pollution treatment systems was impractical. Consistent with the
 eventual ARRA goals regarding water conservation, ultimately the decision was made to capture and
 recycle surface water from reclaimed properties for irrigation rather than purchasing potable water
 from a water utility as costs were estimated to reach up to $70,000 per year. Stormwater collection
 and storage became the solution for irrigation. The development and utilization of permanent ponds
 for water storage and irrigation was considered consistent with sustainable site development during
 both construction and for permanent stormwater control and provided the added benefits of creating
 upland aquatic water features for the botanic garden. As the concept developed, however, it was
 recognized that permanent water storage impoundments must be designed and constructed according
 to different standards than temporary sediment ponds that would have been used during reclamation
 and grading. The ARRA Pennvest initiative provided the opportunity and additional funding to
 design and construct these impoundments as permanent features of the Botanic Garden.

        C.      OIG Misunderstanding of “Master Plan” Purpose
         In attempting to support its narrow view that the permanent irrigation ponds were mere
 “sediment ponds” developed to support “mining,” OIG identified the fact that the design firm, M·T·R·
 Landscape Architects, LLC, developed a “Master Plan” for the Botanic Garden in 2003 and did not
 include permanent impoundments. OIG, however, misunderstands the nature of a Master Plan as it is
 an initial conceptual overlay of potential garden features on the real estate. It did not, nor could it,
 account for the three dimensional aspects of underground mines, subsurface groundwater flow from
 upgradient and hydrologically connected on and off-site underground mines, landslide features,
 subsidence openings and depressions, and related site conditions. A Master Plan, as developed by a
 landscape architect, is the first stage of a project where conceptual framework is prepared, however,
 it does not include any detailed designs or technical specifications. Such was the case in developing
 the Master Plan for the botanic garden since it did not, nor was it intended to, deal with permanent
 irrigation issues when it was developed and it did not consider the magnitude of the AML issues.

12-R-0321                                                                                            21
 III.     PROPERTY RIGHTS AND THE “DAYLIGHTING” RECLAMATION TECHNIQUE
        A.        Property Rights

        Since the surface estate and mineral estates were severed 4 in the early 1900s, in order to fully
reclaim the property, PBG needed control of both estates. As noted above, PBG had a surface lease
with Allegheny County. To develop a complete reclamation plan, PBG sought and was deeded
ownership interests in the remaining underground coal pillars from the mineral owner, Champion
Processing, Inc. (“Champion”). As a charitable donation from Champion, by deed dated January 4,
2010, PBG received the remaining coal owned by Champion in Settlers Cabin Park and underlying
the garden site.5
          Having successfully obtained both the surface and mineral rights and after extensive
 engineering and technical review, PBG sought support for conducting the comprehensive reclamation
 plan through the well-documented mine reclamation technique referred to as “daylighting” the
 underground mines. Daylighting is a form of “remining” that removes the strata overlying the
 abandoned underground mine to expose and allow removal of the pollution and subsidence causing
 coal pillars and pyritic shales. It also allows total energy resource recovery. Using the technique,
 following coal removal the site is regraded to specific contours, topsoil is replaced and regevetated.




 4
   Ownership of any estate or interest in land may be severed from ownership of or an interest in any other part of the
 land. Thus, ownership of the surface, oil, gas, coal, limestone and any other definable part of the land are all capable of
 being severed and owned as separate estates. Such a severance can be made by deed, will, mortgage or lease.
 5
   See Coal Special Warranty Deed recorded in the real estate records of Allegheny County, Document No. 2010-1610,
 Book BK-DE-14162, Page 180.




12-R-0321                                                                                                             22
 .



            Map of mine works beneath portion of Phase I Botanic Garden project.




12-R-0321                                                                          23
            B.       EPA Supports Reclamation Technique
            Throughout its Draft Report, OIG characterizes the reclamation project as a “mining project”
 but completely ignores the fact that since 1976, the EPA itself, along with many other federal and
 state regulatory agencies, has endorsed mine reclamation through remining as a highly effective
 method for lessening AMD and eliminating hazards and subsidence. In its 1976 “Feasibility Study:
 Deerpark Daylighting Project,” the EPA Office of Research Development concluded that
 “daylighting abandoned underground mines can be used to eliminate acid mine drainage from certain
 abandoned mine workings and also enhances the use potential of the land, minimizes the risk of
 future erosion, subsidence and stream sedimentation.” 6 Of course, the reclamation project will
 extract the remaining coal but given the amount of federal research regarding AMD abatement and
 the limited federal funds available for AML reclamation, remining abandoned mine land projects are
 encouraged by federal and state agencies.7
            As stated in the Pennsylvania regulations8:
                     “This subchapter provides incentives to encourage qualified operators to
                     undertake reclamation and remining of abandoned mine lands and bond
                     forfeiture sites for the purpose of eliminating hazards to human health
                     and safety, abating pollution of surface and groundwaters and the
                     contribution of sediment to adjacent areas, restoring land to beneficial
                     uses and recovering remaining coal resources.”

            The basis of the policy is a body of research that documents the benefits of reclamation
 projects through remining.9 EPA’s own Coal Remining Best Management Practices Guidance
 Manual10 states expressly:
 6
     EPA-600/2-76-110, June 1976.
 7
   See 30 C.F.R. §§ 773.13, 785.25; 52 P.S. § 1396.4h; 25 Pa. Code § 86.251. Pennsylvania encourages reclamation and
 remining of abandoned mine lands through five programs under the Surface Mine Conservation and Reclamation Act:
                    Section 4.8 - Government Financed Reclamation and Construction Contracts
                    Section 4.9 - Designating Areas Suitable for Reclamation by Remining
                    Section 4.10 - Remining Operators Assistance Program
                    Section 4.12 - Remining Financial Guarantees
                    Section 4.13 - Reclamation Bond Credits
 8
     25 Pa. Code § 86.251.
 9
   See, e.g., Hawkins, J.W., 1994. Statistical characteristics of coal-mine discharges on western Pennsylvania remining
 sites. Bull. Water. Resources 30: 861-869; Hawkins, J.W. 1995. Characterization and effectiveness of remining
 abandoned coal mines in Pennsylvania. US Dept Interior, US Bureau of Mines RI 9562; Hawkins, J.E., Miller, K, Brady,
 K.B.C. and J. Cuddeback. 2002. Effectiveness of Pennsylvania’s remininig program in abating abandoned mine drainage:
 Part 2 – Efficacy of best management practices. In Proceedings of the 2002 Annual Meeting of the Society of Mining
 Engineers, Feb 22-27, Phoenix, AZ; Skousen, J., Hedin, R., and B. Faulkner. 1997. Water quality changes and costs of
 remining in Pennsylvania and West Virginia. In Proceedings of the 18th Annual West Virginia Surface Mine Drainage
 Task Force Symposium, April 15-16, Morgantown, WV; Smith, M.W, Brady, K.B.C. and J.W. Hawkins. 2002.


12-R-0321                                                                                                      24
                    “Review of existing data and information that was used to prepare this
                    document indicates that remining operations accompanied by proper
                    implementation of appropriate BMPs is highly successful in reducing the
                    pollution load of mine drainage discharges. The information also shows
                    that remining BMPs typically are used in combination as part of an overall
                    and cite-specific BMP plan. Critical to the effectiveness of a BMP plan in
                    terms of water quality and AML improvement is that the plan is well
                    designed and engineered, implemented as proposed, and that the
                    implementation and subsequent post-mining results are verifiable.”

 As a matter of fact, EPA itself has studied the concept and developed statistical summaries of its
 effectiveness and algorithms for analyzing abandoned mine sites that will benefit from remining.11 In
 finding that daylighting the polluting, subsidence-prone mine was actually encouraged as the
 appropriate reclamation technique by EPA, among other regulatory agencies, PBG relied on the fact 

 that several generations of federally funded environmental scientists, geologists and engineers 

 recognize and support the method chosen for the PBG site. 


           C.      Government Support
            In developing public support for its vision, PBG met with senior PADEP officials including 

 the Secretary, Deputy Secretary for Mineral Resources, regional PADEP administrators, the 

 Allegheny County Executive, County Commissioners and senior staff. PBG attended numerous 

 public hearings regarding the project. They also met with federal officials including both 

 Pennsylvania Senators, the District Congressman, and the United States Department of Interior, 

 Office of Surface Mining (“OSM”) Appalachian Region Director and state officials, all of whom

 applauded and reinforced the vision for reclaiming abandoned mine lands in an Allegheny County 

public park to a premium and permanent land use while abating pollution and providing a s ustainable
nucleus for local and regional economic development. The validity of PBG’s reclamation plan is further
demonstrated by a recent site tour guided by US Department of the Interior and PADEP mining and
reclamation staff where the site was used an example of an ideal reclamation-through- remining project.



 Effectiveness of Pennsylvania’s remining program in abating abandoned mine drainage: Part 1 – water quality
 improvements. In Proceedings of the 2002 Annual Meeting of the Society of Mining Engineers, Feb 22-27, Phoenix, AZ;
 Smith, M.W., Smith, K.B.C. and J.W. Hawkins. 2002. Effectiveness of Pennsylvania’s remining program in abating
 abandoned mine drainage: water quality impacts. Trans Soc. Min. Metal. Exploration 312: 166-170; US Environmental
 Protection Agency. 2001. Coal Remining – Best Management Practices Guidance Manual. EPA-821-B-01-010. 624 pp.
 10
      EPA-821-B-01-010, December 2001.
 11
   See Coal Remining Statistical Support Document, EPA-821-01-011, published by EPA’s Office of Water, Engineering
 and Analysis Division, discussing the Clean Water Act, § 301 (Rahall Amendment) supporting incentives and
 encouraging remining as a method to abate perpetual AMD.

12-R-0321                                                                                                   25
 IV.     RECLAMATION CONTRACTOR
         As the project evolved from the original lease with Allegheny County, to meetings and
 discussions with local, state and federal agencies, studying the site conditions and deve loping a
 comprehensive reclamation plan, in 2007, PBG finally issued a Request for Proposals to conduct the
 reclamation and construction project. Following field meetings, clarification sessions and interviews
 with prospective contractors, the Mashuda Corporation (“Mashuda”) was chosen as the preferred
 contractor for numerous reasons including its extensive experience in daylighting underground mines
 to allow highway construction for the Pennsylvania Turnpike Commission and Pennsylvania
 Department of Transportation, its reputation for high quality and efficient, large earth-moving projects
 and the very important fact that it would accept the recovered coal as its primary consideration for the
 project. In February 2008, the Reclamation and Construction Grad ing Agreement (“Reclamation
 Agreement”) was executed under which Mashuda was responsible for all of the means and methods
 associated with the reclamation project including any permitting, coal removal and sales and land
 grading. The contractor was also granted a license to remove and do its best to sell any recovered
 coal.
         It was originally anticipated that the project would be conducted under a Government Financed
 Construction Contract (“GFCC”) 12 between Mashuda and the PADEP. It was later determined by the
 PADEP that the framework and environmental controls found under its permitting program
 supporting reclamation by remining would provide a better regulatory template for its review rather
 than the GFCC, hence Mashuda sought and obtained a surface mining permit for the reclamation
 project. Regardless of the regulatory vehicle used for review by the PADEP, the project is widely
 known and acknowledged as one of the most creative and visionary reclamation projects in the
 Appalachian coal fields.


 V.      DRAINAGE CONTROL: OPTIMIZING SURFACE HYDROLOGY
         Construction projects including reclamation projects must meet surface water control and
 discharge requirements under the Clean Water Act. As discussed above, the project designers,
 M·T·R, and consultants associated with the project recognized that the Botanic Garden would
 require significant water resources for irrigation purposes


 12
    See 52 P.S. § 1396.4h, under which Pennsylvania encourages and authorizes incidental and necessary removal of coal
 to support reclamation of abandoned mines.


12-R-0321                                                                                                      26
The use of polluted groundwater is obviously precluded, and the purchase of public water for irrigation
purposes would be too expensive and inconsistent with sustainable development concepts. Therefore,
the concept of optimizing surface water recovery and conservation use by designing the surface grading
plan and construction of permanent irrigation impoundments and an underground water storage system
to capture and retain stormwater was developed. The PBG design team determined it would be wise to
develop permanent stormwater retention basins that would far exceed minimal and temporary
requirements for the reclamation project.
        PBG engaged Civil and Environmental Consultants (“CEC”) to optimize permanent pond
 locations consistent with a grading plan and surface hydrology. CEC chose three out of six pond
 areas for permanent impoundments. CEC also developed plans and specifications according to
 standards for permanent impoundments as opposed to smaller temporary sediment ponds ordinarily
 used in grading, reclamation or mining projects. For example and notwithstanding OIG’s
 characterization of the impoundments as mere “sediment ponds,” enhanced sized/permanent
 impoundments require significant materials handling, lift construction, compaction standards
 requirements, embankment slopes and outfall controls that would not otherwise be required. PBG
 recognized that it would be most efficient and cost effective from a construction management
 perspective for the reclamation project to temporarily use the permanent impoundments for sediment
 control. As noted throughout this response, one of the reasons for conducting the daylighting
 operation is to abate the acid mine drainage, therefore, it was well known that along with controlling
 stormwater, by intercepting the mine voids, the contractor would also encounter polluted mine
 drainage. The mine drainage requires various levels of chemical treatment prior to being discharged
 and handling both surface and groundwater encountered with the project must be as efficient as
 possible. Any intercepted AMD is collected and treated in separate treatment ponds which then may
 be discharged into the permanent impoundments prior to discharge to the waters of the United States.
 However, such interim and transient uses of the permanent impoundments in providing sediment
 control and possibly receiving treated polluted water encountered in excavation of the remaining coal
 pillars does not belie that they are permanent impoundments engineered and constructed to collect,
 store and recycle 2.5 million gallons of water to supply the garden’s future irrigation needs as stated
 in the Pennvest/ARRA application. Further and compelling is that the Phase II portion of the project,
 which OIG fails to address, includes the installation of a large underground stormwater storage
 system that has no relation with the active reclamation activities.


12-R-0321                                                                                          27
 VI.    CONTRACT DOCUMENTS/FULL DISCLOSURE
        PBG’s interest in reclaiming the abandoned mines associated with its leased property in
 Settlers Cabin County Park has been widely publicized and discussed, the subject of many meetings
 with high-level governmental officials, engineering and environmental professionals, and has been
 the destination of numerous site tours with both public and private sector officials, donors and
 contractors. PBG has been an “open book” in obtaining its lease, obtaining mineral ownership,
 defining the site conditions and problems, developing long term solutions and obtaining contributions
 in support of its vision. When President Obama announced the ARRA and it was determined that
 Pennsylvania would pursue projects through Pennvest, PBG knew that it had a “shovel ready” project
 and applied for a grant in May 2009. At that time, it was widely known by the PADEP and
 subsequently by Pennvest that the project involved reclamation that would abate pollution and
 adverse abandoned mine conditions and required coal removal. During the summer of 2009 and
 concurrent with the Pennvest review of PBG application, the Mashuda permit application was also
 being reviewed, and ultimately approved in August of 2009. In September 2009, the plans and
 specifications for the enhanced permanent irrigation ponds and water storage system were developed
 and consistent with federal bidding requirements, the availability of bid documents was published in
 the Pittsburgh Tribune. It fully described the nature of the project. See Attachment A.
        The Pennvest application submitted by PBG made no attempt to disguise the fact that a
 construction of irrigation ponds as permanent impoundments would temporarily be used during
 reclamation activities. The ARRA application did not require an extensive discussion; however, the
 “Project Narrative” expressly states:
                “HSWP is remediating former deep mining conditions of 180 ac of its
                452-ac site, located in Settlers Cabin County Park. Grading of the site
                occurs in conjunction with that cleanup, and we are planning to
                construct (3) sediment basins that will be converted to permanent
                irrigation storage facilities at that time to supply the future irrigation
                needs of the garden. . . The proposed ponds combined will have the
                capacity to collect, store, polish and recycle 2.5 million gallons of
                surface runoff, which is water the Botanic Garden would otherwise
                have to purchase from a municipal drinking water source. . . “

 Although perhaps the description of the reclamation technique could have provided more detail, that
 is a distinction without a difference. The fact is that the ponds were planned for and will be used as
 described in the application – for future irrigation needs of the garden. Further, PBG viewed the
 project as a wise use of funds in support of a public benefit project and consistent with the goals of

12-R-0321                                                                                           28
 sustainable development, green projects, water conservation and ARRA desire for “shovel-ready”
 projects.
        In its supporting documentation submitted to Pennvest, the contract with Mashuda was fully
 disclosed and the fact that a surface mining permit was the chosen regulatory vehicle. The Pennvest
 ARRA funded Irrigation Ponds and Water Storage System Construction Agreement, also reviewed by
 Pennvest, was carefully drafted in a manner to fully integrate those activities with the Reclamation
 Project and even addressed the prospect of multiple contractors working on the same property in
 pursuit of one goal: the development of the botanic garden. It expressly describes the Reclamation
 Agreement and obligations of contractor cooperation. The RFP, advertisement and subsequent
 Agreement went to lengths to inform prospective and the selected contractor that the Reclamation
 Project would be in a coal removal regulatory environment and therefore forwarned them that all
 activities would be viewed through the regulatory lens of a mining operation, particularly from a
 worker safety perspective. The funding agreement with Pennvest therefore incorporates the plans
 and specifications, contract terms and special conditions related to the reclamation project as they are
 incorporated into the ARRA funded contract.

 VII.   COAL RESOURCES
        The daylighting operation envisions overburden removal and carefully removing the
 remaining coal pillars and associated carbonaceous material, which is the sourc e of acid mine
 drainage. As noted above, PBG received the coal as a charitable contribution from Champion on
 January 4, 2010. But for the fact that there might be coal resources at a depth to make them
 economically recoverable, there would be no way to reclaim Settlers Cabin land for any public
 purpose. The fact that Mashuda agreed to the extensive reclamation work with payment primarily
 coming from its potential sale of any coal recovered in recreating a tract suitable for a botanic garden
 was consistent with the PBG purpose and vision, encouraged by law, public officials and private
 donors. Since PBG is a not-for-profit 501(c)(3) organization, the use of its coal for reclamation
 services on its land should not be viewed as providing a “profit” to PBG. To the contrary, PBG is
 using a charitable contribution to further its related and primary purpose, that is, the development of a
 world class botanic garden in a public park for the benefit of the region while reclaiming abandoned
 mine lands and abating perpetual acid mine discharges. Further, the extent of coal recovery is
 unknown, as is the price of coal at any point in time. There is no way to know the value of the
 remaining coal. The Mashuda contract provides a fixed cost for the reclamation activity and all

12-R-0321                                                                                          29
 parties are hoping that the old coal companies and “pillar robbers” following them in the Depression,
 left enough to allow the metamorphosis of this site from an industrial legacy to an oasis in Allegheny
 County, Pennsylvania. The OIG imputes that PBG is a profit-making entity and mischaracterizes a
 well considered solution to an environmental dilemma as a “coal mine” not worthy of ARRA
 support. Nothing could be further from the truth.

 VIII. CONCLUSION
         PBG respectfully requests that the United States Environmental Protection Agency, Office of
 Inspector General reconsider its conclusions in light of the information submitted in this response. By
 viewing the entire Botanic Garden development history, challenges and benefits, and how the
 Pennvest ARRA project effectively and efficiently supports those goals, it should be clear that
 providing funds for stormwater collection and storage is consistent with ARRA goals and objectives.

OIG Response: The Botanic Garden provided a great deal of background information on its history in
an attempt to demonstrate that its project is consistent with Recovery Act goals and objectives. We
recognize this background information and included much of it in our own report.

The OIG understands that complete site reclamation was necessary for development of the Botanic
Garden site due to acid mine drainage issues. We also understand that Recovery Act funds provided
the opportunity to design and construct these irrigation ponds as permanent features of the garden. We
agree that the purpose stated in the funding agreement to install “3 irrigation ponds to collect, store,
and recycle 2.5 million gallons of water for irrigation of the botanic garden” is consistent with
Recovery Act goals and objectives. However, as observed in our site visit in May 2011, the ponds are
currently being used for reclamation activities to capture mining runoff. Although these sediment
ponds may eventually be converted to irrigation ponds as stated in the funding agreement, we maintain
that the ponds are not now being used for their intended purpose. The funding agreement is the official
contract or legal document that we must base our review on. It did not contain any language on the
ponds initially being used for reclamation activities. In our report, we do not take the view that the OIG
and EPA discourage reclamation activities, as the Botanic Garden suggests in its response. Instead, our
role is to review the use of Recovery Act funds in light of applicable federal regulations and governing
funding agreements. The Botanic Garden claims that it “was well known” that polluted mine drainage
would be encountered and states that it has been an “open book” throughout its endeavors. However,
during our review we found that EPA Region 3 was unaware that reclamation activities were taking
place and that the ponds were being used as mining sedimentation ponds prior to being converted to
irrigation ponds.

The Botanic Garden stated that the OIG did not address the phase II portion of the project. On the
contrary, the OIG specifically addresses phase II of the project in the “Background” section of
chapter 1 as well as in the chapter 2 discussion of our first finding. We state in chapter 2 that one of our
concerns regarding phase II of the project is that it will never be completed, and we described three
reasons for this concern. First, the ponds must be treated for acid mine drainage prior to being used for
irrigation. Second, the ponds cannot be used for their stated purpose until Mashuda has completed its

12-R-0321                                                                                          30
mining activities. Finally, there is currently no one under contract to compete phase II of the project.
In its response, the Botanic Garden did not provide any plausible date or realistic timeline for when the
ponds will actually be used for irrigation, the purpose stated in the ARRA funding agreement. The
Botanic Garden also did not address any of these three concerns we listed in our report.

With regard to chapter 3 of our report, the Botanic Garden argues that the program income regulation
does not apply because the Botanic Garden received the coal as a charitable contribution from the
mineral owner, Champion. However, Mashuda’s contract with the Botanic Garden does not state that
the coal is a charitable donation; the contract only states that excess proceeds go to the Botanic Garden.
Additionally, the funding agreement, which was signed by the Botanic Garden, contained federal
requirements, including the program income regulation. Accepting the funds and signing the funding
agreement was a voluntary measure that the Botanic Garden undertook. By signing the funding
agreement, the Botanic Garden agreed to follow the federal regulations.

In summary, the Botanic Garden did not provide the OIG with any information that would cause us to
change our findings and recommendations.




12-R-0321                                                                                         31
                                                                           Appendix C

      EPA Region 3 Response to Draft Report and 

                   OIG Evaluation 


              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                     REGION III

                                 1650 Arch Street 

                      Philadelphia, Pennsylvania 19103-2029




                                                          November 7, 2011
SUBJECT:         Draft Site Visit Report:
                 American Recovery and Reinvestment Act
                 Site Visit of the Botanic Garden of Western
                 Pennsylvania Project No. OA-FY11-A-0218

FROM:            Shawn M. Garvin
                 Regional Administrator, Region III
                 U.S. Environmental Protection Agency

TO:              Robert Adachi
                 Director of Forensic Audits
                 U.S. Environmental Protection Agency
                 Office of the Inspector General

       Thank you for the opportunity to comment on the September 29, 2011 draft report
on the American Recovery and Reinvestment Act (ARRA) Site Visit of the Botanic
Garden of Western Pennsylvania, Project No. OA-FY11-A-0218. The draft report
references two (2) findings:

Draft Findings

   1.	 “The Botanic Garden used Recovery Act funds to construct ponds that are not
       being used for their stated purpose. The Botanic Garden’s loan agreement with
       PENNVEST states that the Botanic Garden will build irrigation ponds to collect,
       store, and recycle water for future irrigation needs. However, the ponds are being
       used as sediment ponds to capture runoff from a mining operation”; and

   2.	 The Botanic Garden is operating, through a contractor, a for-profit surface mining
       operation that will generate revenue for the Botanic Garden and that the revenue
       generated by the mining activity would be program income that must be used to
       offset the Recovery Act-funded project costs. By not offsetting the project costs
       with the program income, Recovery Act funds are reducing mining operation
       costs and thereby, increasing the Botanic Garden’s potential mining revenue.


12-R-0321                                                                              32
     Regarding the draft finding that neither the Intended Use Plans (IUP) nor the Green
Project Reserve Checklist provided to Region III make any mention of mining activities
associated with the Botanic Garden project, it is accurate that the project description
states “construction of three (3) irrigation ponds to collect, store, and recycle 2.5 million
gallons of water for irrigation of the botanic garden.” Although the construction of
stormwater ponds is an eligible project to receive funding under the Clean Water State
Revolving Loan Fund Program (CWSRF), Region III concurs that the project
description could have better captured the full breadth of what is happening and planned
at the site by indicating that the work was to occur in two (2) phases.

     Under Phase 1, the Botanic Garden built three permanent irrigation ponds, which are
not currently being used for their stated purpose. The ponds could have been built when
the site preparation work (re-mining activity) concluded. To keep costs and construction
activity down, the applicant, a non-profit, integrated construction of the ponds with other
construction activity. Although not specifically detailed in the project description,
stormwater sedimentation ponds are an eligible project under the CWSRF. It is fully
expected that at the end of the mine reclamation process, the ponds will be cleaned, a
fourth pond will be constructed and one (1) pond will be converted to an underground
irrigation pond through the installation of storage tanks as part of a “Phase 2”. The
transformation of mine scarred land to a botanic garden is a significant environmental
accomplishment.

        Regarding the draft finding that the mining activity is creating program income
for the Botanic Garden, loan recipients are not subject to the federal grant regulations and
the grant regulations, by their terms, do not apply to loan recipients. The draft report
cites an older Office of Management and Budget (OMB) guidance (OMB Circular A­
110, requirements for federal grants with nonprofit organizations). OMB Circular A-110
is now located in the Code of Federal Regulations (CFR) at 2 CFR Part 215. EPA
adopted these regulations; they are located at
40 CFR Parts 30. The program income section in 40 CFR 30.24 is essentially the same
as 2 CFR 215.24. The section applies to grant and subgrant recipients as opposed to loan
recipients under a grant. The definition section in the grant regulations excludes loans
from the definition of award. The appropriate section is 40 CFR 30.2(e) in the EPA grant
regulations and 2 CFR 215.2(e) in the OMB A-110 guidance:

(e) Award means financial assistance that provides support or stimulation to accomplish
a public purpose. Awards include grants and other agreements in the form of money or
property in lieu of money, by the Federal Government to an eligible recipient. The term
does not include: technical assistance, which provides services instead of money; other
assistance in the form of loans, loan guarantees, interest subsidies, or insurance; direct
payments of any kind to individuals; and, contracts which are required to be entered into
and administered under procurement laws and regulations.

       There is a similar definition of “grant” in EPA's grant regulations covering state
and local grant recipients at 40 CFR 31.3:



12-R-0321                                                                                   33
Grant means an award of financial assistance, including cooperative agreements, in the
form of money, or property in lieu of money, by the Federal Government to an eligible
grantee. The term does not include technical assistance which provides services instead
of money, or other assistance in the form of revenue sharing, loans, loan guarantees,
interest subsidies, insurance, or direct appropriations. Also, the term does not include
assistance, such as a fellowship or other lump sum award, which the grantee is not
required to account for.

        Based on the language above, loan recipients are not required to follow the grant
requirements that are in Part 30 or Part 31 grant regulations. The regulations apply to
grant and subgrant recipients. Region III does not concur with this finding since the
grant regulations are not relevant as they do not apply to loan recipients by their terms.


Proposed Recommendation

        The draft report recommends that the Regional Administrator, Region III, recover
from PENNVEST ARRA funds in the amount of $1,368,894 awarded to the Botanic
Garden of Western Pennsylvania. It is also recommended that Region III prevent the
continued use of CWSRF funding for this project. To date, $736,596 was spent by
Botanic Garden on “Phase 1,” i.e. the construction of three (3) stormwater retainage
ponds and a culvert. $632,298 remains available for “Phase 2”. The use of SRF funding
for stormwater management ponds and/or water reuse are eligible projects, therefore, the
incurred costs are eligible. Since the fundamental issue is the project description
provided in the IUP, EPA suggests a more appropriate recommendation is to ensure that
complete project descriptions are provided to EPA as part of the IUP approval process.
EPA will request that PENNVEST review the ARRA, FY’10, and FY’11 IUPs within six
months and confirm that project descriptions accurately depict the funded activity. Any
differences will be reported to EPA and if warranted, amendments will be made to IUPs.

       Thank you for the opportunity to provide input. It is EPA’s intent to continue to
closely monitor this project through completion. At a minimum, we will request
quarterly status updates from PENNVEST and the Pennsylvania Department of
Environmental Protection. Attached are additional comments for your consideration
which relate to the factual accuracy of the draft report. Should you have any questions
regarding this response, please contact Ms.Magdalene Cunningham, CWSRF
Coordinator, at 215-814-2338.

Attachment

OIG Response: With regard to finding 1 of our report, EPA Region 3 agrees that the
project description could have better captured the full breadth of the project. However,
Region 3 states that although the use of ponds as stormwater sedimentation ponds is not
detailed in the project description, this use is eligible under the CWSRF. We agree that



12-R-0321                                                                                34
the use of these ponds for the mining reclamation process may be eligible under the
CWSRF, but we maintain that it is not eligible under the funding agreement. The funding
agreement does not include any language on the ponds being initially used as
sedimentation ponds; therefore, we believe that they are not being used for their intended
purpose as irrigation ponds for the Botanic Garden. Region 3 asserts that the
fundamental issue was that the project description in the IUP was not completed and
suggested that a more appropriate recommendation would be to combine our two
recommendations with one that states, “ensure project descriptions are provided to EPA
as part of the IUP approval process.” We do not believe that this proposed
recommendation is appropriate, as EPA cannot change existing funding documentation
to retroactively validate the approval of this project. The Botanic Garden did not describe
the ponds as sedimentation ponds to EPA throughout the funding approval process.
Additionally, the Region 3 CWSRF project officer was unaware that the ponds were
being used for mining reclamation activities until the OIG brought it to her attention.
We do not consider it appropriate to change the IUP description to legitimize the project.
We retained our draft report recommendation.

With regard to finding 2 of our report, the funding agreement addendum states in item 19
that the contractor must comply with all applicable laws, regulations, and program
guidance, including the federal regulation on program income. The funding agreement is
a legal and valid document; thus, the requirement applies to the Botanic Garden project.

EPA Region 3 made a number of points on regulations applying to grant recipients
versus loan recipients that dispute our finding. In our draft report, we referred to the
Recovery Act funding awarded to the Botanic Garden as a loan, and to the contract as the
loan agreement. Region 3’s response states that because the Botanic Garden is a loan
recipient rather than a grant recipient, 2 CFR 215.24 on allocation of program income
does not apply. However, regardless of whether the subject award is considered a grant
or a loan, the signed funding agreement includes an addendum stating that all contractors
must comply with the relevant regulations. If 2 CFR 215.24 does not apply to the
Botanic Garden, it should not have been included in the funding agreement. We retained
our draft report recommendation and deleted references to a “loan agreement.” The final
report includes the term “funding agreement,” as that is the term used in the official
document.

In addition, OIG conducted an additional review of the regulations and the funding
agreement between Pennvest and the Botanic Garden. In this review, we found that the
funding agreement specifically refers to the funding as a grant with federal loan
forgiveness. The funding agreement states, “All references to Loan Amount shall be the
intended repayment amount and all references to Grant Amount shall be the intended
principal forgiveness amount.” Additionally, the project specific terms of the funding
agreement lists loan amount as $0 and grant amount as $1,368,894 with federal loan
forgiveness. The funding agreement provides contradictory language stating that the
funding agreement is a grant with loan forgiveness. Regardless of whether the funding
agreement is a grant or loan, the inclusion of the requirements in the addendum requires
compliance with 2 CFR 215.24. 


12-R-0321                                                                                35
                                          Attachment 

                                       Specific Comments 


Chapter 1

1.	 Page 3, first bullet and 4th Paragraph:  The report refers to plural Intended Use Plans (IUPs).  
    There was only one IUP although it was amended to add additional projects.  The Botanic 
    Garden project was included in the amended IUP. 
OIG Response: We agree, and we adjusted the report accordingly.

2.	 Page 3, second bullet:  The report incorrectly states that PENNVEST provided the Green 
    Project Reserve (GPR) Checklist.  The Checklist was Region III’s documentation of its review 
    of the information provided by the Pennsylvania Department of Environmental Protection 
    (PADEP). 
OIG Response: We agree, and we adjusted the report accordingly.

3.	 Page 3, 3rd Paragraph:  The report states that “the region could not add projects or 
    suggestions to any of the projects.”  This is not an accurate description of the Region’s 
    review of the State’s IUPs.  EPA routinely asks questions and requests additional 
    documentation to ensure projects are eligible.  Requests for additional documentation were 
    sent to PENNVEST and PADEP to ensure the American Recovery and Reinvestment Act 
    (ARRA) projects were eligible, especially for the GPR.   
OIG Response: During our field work, we found conflicting information on this point.
However, to address Region 3’s concern, we deleted this sentence from our report.

4. Page 3, 3rd Paragraph: The report states that the project “scored 0/100” on PADEP’s 
   evaluation.  The score is not indicative of the environmental benefits associated with the 
   project.  It is the result of:  
    Non‐point source projects, such as this one, are not required to be individually ranked in 
       the CWSRF program. 
    PADEP’s project ranking system at the time the project was scored was designed for 
       conventional stormwater projects; the system was not designed or intended to rate the 
       environmental benefits achieved by a project of this type.   
    Although not required, PADEP has revised its project ranking system to include all 
       nonpoint source projects.     
   	 ARRA stated that projects were to be funded “notwithstanding the priority rankings 
       they would otherwise receive…”  The overall project is the transformation of a deep 
       mine with associated acid mine drainage into a botanic garden.  The mine reclamation 
       activities being conducted are designed to remediate existing water quality impairment.  
       The stormwater runoff from the mine site is causing water quality problems.  Local 
       streams, Robinson Run and Chartiers Creek, are listed as impaired from acid mine 
       drainage.   


12-R-0321                                                                                         36
OIG Response: We understand that this score may not be indicative of the
environmental benefits associated with the project. However, this score was the
criterion used for the evaluation, and if it was not relevant, it should not have been
used. We modified the report to include Region 3’s concern on this point.

5.	 Page 4, 2nd Paragraph:  The report states that the authority for the PENNVEST loan was 
    under Section 319 of the Clean Water Act (CWA) as a “green infrastructure” project of the 
    Green Project Reserve.  Green Infrastructure projects were specifically included in ARRA, not 
    Section 319 of the CWA. 
OIG Response: We agree, and we adjusted the report accordingly. 


6.	 Page 6 of the report states:  “Currently, no firm is under contract to complete Phase II of the 
    project.”  PENNVEST informed EPA that the Botanic Garden is in the process of procuring 
    another contractor to complete the project work.  PENNVEST indicates that Phase II of the 
    project will be completed before June 30, 2013.   
OIG Response: While we acknowledge this information, we believe that our concern
that no firm is under contract to complete phase II is a valid concern, and we did not
change any text in our report in response to this comment.
 

Chapter 2

7.	 Page 8, last paragraph: The report misstates the nature of the non‐ARRA mine reclamation 
    activity being conducted by the Botanic Garden under the contract with Mashuda by 
    referring to it as “an active coal mine operated by Mashuda” and “operating surface mine.” 
     
    The reclamation activities are being conducted under a PADEP permit issued under 
    Subchapter F of the Chapter 87 Mining Regulations which applies to re‐mining abandoned 
    sites that have a pre‐existing discharge.  This permit was issued with the intent to improve 
    local water quality.  Similarly, a goal of the CWSRF program is to implement projects that 
    address existing water quality problems.  This project meets the eligibility criteria of the 
    CWSRF program. 

OIG Response: We understand Region 3’s concern with describing the site as “an
active coal mine” and “operating surface mine.” Although these descriptions reflect
what we found during our site visit to the Botanic Garden, we agree that re-mining is
considered reclamation activities. We changed some text throughout our report to
demonstrate that mining is in fact reclamation. However, although addressing existing
water quality problems is a goal of the CWSRF program and is eligible under the
CWSRF program, we maintain that reclamation activities are not what Recovery Act
funding was provided for.




12-R-0321                                                                                        37
8.	 Page 9, 1st paragraph:  The draft report states that the Office of the Inspector General does 
    not know when, if ever, the ponds will be completed.  The draft report lists three reasons.  
    The first two bullets will not impact commencement of Phase II construction.  It is 
    contemplated and planned that the ponds will be cleaned out prior to use for irrigation.   
    Secondly, Mashuda only needs to be finished mining in the area of the irrigation ponds for 
    Phase II to commence.  PENNVEST informed EPA all work associated with the construction 
    of the ponds is expected to be completed before June 30, 2013.  This is six months before 
    the Commonwealth’s grant project period ends.  There are safeguards in place to ensure 
    that PENNVEST is able to require the repayment of funds should the gardens not be 
    completed.   
OIG Response: We disagree with Region 3 that the first two bullets will not impact
phase II construction. Throughout our review, we did not find any information to
indicate that the acid mine discharge infected ponds can feasibly be used for irrigation
before they are treated. Second, although phase II construction can commence when
Mashuda is done mining in the area, the ponds will not be used to irrigate the Botanic
Garden until the entire reclamation activity is complete and the Botanic Garden is
developed. While Region 3 claims that Pennvest has safeguards in place to ensure
project completion, such safeguards were not apparent in our review. Therefore, we did
not change our report text in response to these concerns.

Chapter 3

9.	 Page 11, first sentence:  The report states:  “The Botanic Garden is operating a for‐profit 
    surface mining operation through Mashuda that will generate revenue for the Botanic 
    Garden.”  As explained above, Mashuda received a permit for “mine reclamation” and is not 
    an active “mining operation”.  The revenues generated by the mine reclamation activities 
    are currently paying for that work.  The Botanic Garden has not received any of the 
    estimated revenue from the mine reclamation activities.  It is inappropriate to suggest the 
    offsetting of actual costs since no revenues are being generated by the Botanic Garden and 
    since the loan recipient is not subject to program income requirement. 
OIG Response: As we described above in our response to comment 7, we have
changed text throughout the report to demonstrate that mining is in fact reclamation.
With regard to the comment on program income, our response to Region 3 states that
we believe that the Botanic Garden is subject to the program income requirement.




12-R-0321                                                                                       38
                                                                                     Appendix D

          Pennvest Response to Draft Report and 

                     OIG Evaluation 

 
October 25, 2011 
 
Mr. John Trefry 
USEPA Headquarters  
Ariel Rios Building 
1200 Pennsylvania Avenue, N.W.   
Mail Code:  2421T 
Washington, DC  20460   
 
Re:	     Botanic Garden of Western Pennsylvania 
         ME No. 73167 
          
Dear Mr. Trefry:   

This correspondence is in response to the draft Site Visit Report your office forwarded to EPA 
Region III dated September 29, 2011 in regard to the Botanic Garden of Western Pennsylvania 
project funded with ARRA money, approved by the PENNVEST Board of Directors in July 2009 as 
a principal forgiveness loan, and included in the Intended Use Plan dated July 21, 2009.   

Report Chapter 1 – Introduction 

Purpose/Background/Botanic Garden of Western PA/Reclamation Efforts – No Comment 

Recovery Act Funding for Botanic Garden   

The Project Priority List (PPL) only provides a general description of funded water conservation 
projects; no reference to mining operations is warranted as the PENNVEST funded project in 
question relates to storm water recovery and recycling for irrigation facilities.  

As explained by the Pennsylvania Department of Environmental Protection (DEP)  and 
PENNVEST staff during the OIG site investigation,  this project meets all priority standards set for 
the state by Congress and EPA to approve ARRA projects.  These include Readiness to Proceed 
(Settlement completed and construction begun prior to February 17, 2009); Job Creation (15 
jobs were estimated to be created at the time of approval) and the promotion of “green” 
infrastructure projects (the purpose of this project is to store and recycle 2.5 million gallons of 
water and reduce the amount of treated water needed for irrigation, tying this project directly 
to supporting water conservation and green infrastructure categories).   The priority system 
used to score this particular project was not a good fit for non‐point source projects, but was 



12-R-0321                                                                                         39
used consistently for all projects of this nature in order to help sort out fundable projects for 
consideration.   All Non‐Point Source Green Project Reserve projects that were technically 
complete and ready to proceed within the prescribed timeframes were recommended to the 
PENNVEST Board for funding. 

The final point made in this section makes reference to mining operations.   I am informed that 
this re‐mining operation was evaluated and given a permit under the DEP Chapter 87 
Regulations.  This permit could not have been issued unless the re‐mining actions were intended 
to remediate an existing water quality problem caused by former mining.   The PENNVEST 
funded project is not to re‐mine the area; rather it is to construct the water runoff recycling 
ponds to be used for irrigation of the Botanical Gardens.   Final completion of the facilities and 
installation of tankage will take place prior to June 2013 (deadline for use of ARRA funds). 

Pond Construction –  

The final comment in this section relates to timing of the reclamation project.  This schedule is 
not directly related to the completion of the recycling ponds funded through the PENNEST 
program.  Further, we have been informed by the applicant that portions of the Botanic Garden 
are already in place, and the expectation is to phase completion of the facility. 

Scope and Methodology – No Comment 

OIG Response: PA DEP’s project criteria resulted in a score of zero points out of 100
for the Botanic Garden project. PA DEP stated that the project criteria they used were
not a good fit for non-point source projects; however, they did not cite this in the
evaluation. In addition to the PA DEP evaluation, the Green Project Reserve Priority
List, dated July 21, 2009, rated the Botanic Garden project as –291 for a
Pennvest/Recovery Act project. The Botanic Garden was the only project with a
negative Recovery Act rating to be approved by PA DEP and Pennvest.

Additionally, we concur that the Pennvest/Recovery Act-funded project is to construct
ponds to be used for irrigation. However, during our site visit to the Botanic Gardens,
we observed that the ponds built with the Pennvest/Recovery Act funds are not
currently being used for irrigation. Instead, they are being used to catch mining runoff.
Nowhere in the funding agreement does it state that the ponds will initially be used for
mining. Therefore, we maintain that the ponds are not being used for their intended
purpose as described in the funding agreement—the official contract that we based our
review on. Additionally, although the planned final completion of the project is prior to
the deadline for the use of Recovery Act funds, there is currently no one under contract
to complete the project, and mining activities are estimated to be finished in 2014. 
 

 

 



12-R-0321                                                                                            40
Report Chapter 2 – Botanic Garden Project Costs Should Be Recovered  

The recipient had a choice to make when implementing this project to construct the storm 
water collection recycling ponds.   One alternative would be to wait until all work on the site had 
been completed and then re‐enter the site and construct the facilities on the designated site 
after all other reclamation work had been performed.  The alternative chosen path was to 
integrate the construction work with other necessary activities in order to achieve the end result 
with less overall construction activity.  This will keep costs down.  Another benefit is that this 
will function as an interim facility to control runoff while the site is being reclaimed and ready to 
develop those portions of the Botanic Gardens.   Reducing mobilization costs and utilizing these 
recycling ponds to expedite the reclamation process is a benefit of the project management 
expertise of this not‐for‐profit entity and adds to the overall cost‐effectiveness of this project.    

This is  not significantly different from a contractor setting up temporary soil and erosion control 
facilities for a traditional wastewater treatment facility while under construction, but removed 
after the treatment plant has been finished and final grading and seeding has been completed.  
The difference here is that the money spent on these recycling ponds will not be wasted, as they 
are not to be removed, rather they will be improved to complete the second phase of this effort 
and provide for a long‐term process to collect and provide water to support the Botanic Garden.   
No additional funding is being spent to implement this project in this fashion, the activity is 
eligible, the ponds are being used in the interim to control run‐off from the site, and they would 
have been constructed to the same base level for the long term use in the collection and 
recycling activities. 

The suggestion that the ponds, as currently constructed, are not being used for the original final 
purpose is true.  The problem is that this is an incomplete statement.  The ponds are in the stage 
they are supposed to be at this time, until phase 2 completes the improvements as described in 
the approval.  As another example, it would be like not allowing the excavation and foundation 
work to be part of a treatment plant project because the excavation and foundation do not 
provide for treatment of wastewater.  In both cases, the completed project will provide for the 
facilities to function as designed.    

PENNVEST staff has been in contact with the Botanic Garden staff and have an updated 
implementation schedule that will provide for the completion of the PENNVEST funded portion 
by spring 2013. 


OIG Response: The OIG reviewed this project in light of applicable federal regulations
and the funding agreement. The funding agreement is the official contract in which
details of the project are laid out and the document we must use to achieve our objective
of determining whether these funds were used appropriately. We observed during our
site visit and understand that phase II of the project is not yet complete. We do not
believe that our statement that the ponds are not being used for their intended purpose is
incomplete, because the funding agreement does not indicate that the ponds will ever be



12-R-0321                                                                                          41
used for mining purposes. Even when the project is completed, the ponds would have
been used for mining initially, followed by irrigation. We understand that conducting
the two projects simultaneously benefited the Botanic Garden by keeping costs down;
however, Recovery Act funding was not provided to the Botanic Garden for this reason.
We maintain that Recovery Act funds awarded to the Botanic Garden should be
recovered.
 
In addition, we maintain our concern that the project may never be completed for the
reasons listed in chapter 2 of our report. Based on our review, Mashuda estimates that
mining reclamation activities will continue for at least 3 more years, meaning the
current sediment ponds will not be ready for conversion to permanent irrigation ponds
until at least 2014. Additionally, after mining is completed, the ponds must be treated
for acid mine discharge before they can be used for irrigation. Finally, as mentioned in
our comment above, no company is under contract to complete phase II of the Recovery
Act-funded project to convert the ponds to permanent irrigation facilities. These issues
support our recommendation that Recovery Act funds should be recovered, as there is
no assurance that the project will be completed as intended.
 

Report Chapter 3 – Botanic Garden Project Costs Must Be Reduced by Potential Program 
Income 

The OIG report is incorrect in their assumption that this project violates Title 2 CFR 215.24 
because there is program income.   Title 2 CFR Parts 215 and 230 apply to federal grants made 
directly to non‐profits; they do not apply to the CWSRF and; therefore, do not apply to this 
project.   The CWSRF grant is to the state, and the loan (not a grant) is made under the CWSRF 
by the state to the non‐profit organization.     


OIG Response: The Botanic Garden’s funding agreement with Pennvest contains an
addendum on additional Recovery Act requirements. The addendum states in item 19
that the contractor must comply with all applicable laws, regulations, and program
guidance, including Office of Management and Budget Circular A-110 on
Administrative Requirements and Circular A-122 on Cost Principles, codified in
2 CFR Part 215 and 2 CFR Part 230, respectively. Pennvest states in its response that
this principle does not apply to the Botanic Garden; however, it is included as a
requirement in the funding agreement Recovery Act addendum. The funding agreement
is a legal and valid document; thus, the requirement applies to the Botanic Garden
project.
 

 

 

 



12-R-0321                                                                                     42
Summary –  

The site visit report suggests that $1,368,894 be recovered and that no CWSRF funds be used for 
the water recovery and conservation activities encompassed by the project. 

This recommendation is based upon an incorrect interpretation of the project and the 
requirements that follow ARRA and CWSRF funding. 

The ultimate goal is to proceed with the installation of the three irrigation ponds to collect, store 
and recycle 2.5 million gallons of water to supply the Botanic Gardens irrigation needs.  DEP has 
told us that proper reclamation of the mine site necessitates re‐mining of the site in order to 
ensure proper closing and long term remediation.    This is necessary to promote the ultimate 
use of the site and adequate disposition of water runoff. 

The expectation that the IUP and Green Reserve Checklist would include detail as to how a 
related, but not directly funded, activity is expected to impact this project is stretching the 
process.  The IUP lists are to focus on funded projects/activities.  Detail on work to prepare the 
sites is never included in those descriptions.   This work is preliminary and necessary for the 
water quality/conservation project to move forward.  To install the water recycling and 
irrigation ponds prior to this occurring would add costs to the overall project and could be 
considered poor construction management.  The added benefit to the site and the savings of 
project costs by providing the temporary function of collection run off from the site is consistent 
with accepted construction practices; reducing the overall project cost and mitigating the level 
of surface disturbance and erosion control issues by using the same pond sites to be worked as 
the permanent recycling and irrigation facilities.  The focus of this project is water providing a 
long term irrigation supply for the Botanical Garden currently under construction.  This project 
addresses those issues in a comprehensive fashion.  The fact that the project will also support 
the proper closure of the mine is an added benefit that actually facilitates attainment of the 
project’s fundamental purpose.  Most importantly, in our view, this incidental activity does not 
add any costs that would otherwise be incurred to achieve the fundamental purpose of this 
project. 

I also enclose a copy of the project review performed by an independent consulting firm on 
contract with the Pennsylvania Office of Budget Comptroller’s office.  This detailed review 
provides additional background regarding the project ownership and scope of work.  I would like 
to point out a couple of comments made by this consultant on page 2 of their report: 

To paraphrase the 3rd Paragraph, they indicate that the final completion of the botanic 
attraction is primarily funded through an RACP grant (Commonwealth of PA) already awarded 
and that even if that scope of work never occurs, the first two phases can serve as a complete 
standalone project, as an environmental problem will have been addressed and long term storm 
water management implemented. 




12-R-0321                                                                                         43
I hope this addresses your concerns in regard to you draft report.  I urge you to reconsider your 
position on this project and support the clean water green initiative being implemented in 
Allegheny County. 


OIG Response: We understand that the reclamation activities were necessary for the
water quality/conservation project to move forward. We also understand that the IUP
and Green Project Reserve Checklist would perhaps not include all of this information.
However, we remain concerned that the EPA was not notified throughout the
application process that the project would initially be used for mining. We found that
the Region 3 Recovery Act project officer for CWSRF funds did not know that the
Botanic Garden is currently a coal mining reclamation site. Recovery Act funding was
not provided so that the ponds could initially be used for mining reclamation activities,
followed by conversion to permanent irrigation ponds.

We disagree with Pennvest’s comments regarding the project review performed by the
Pennsylvania Office of Budget Comptroller’s office. Pennvest states that “even if the
[second] scope of work never occurs, the first two phases can serve as a complete
standalone project.” This may be true, but the purpose of the Recovery Act-funded
project is to “install three permanent irrigation ponds that will collect, store and recycle
2.5 million gallons of water to supply the garden’s future irrigation needs.” If the final
phase to convert the land to a Botanic Garden is not completed, the project is not
meeting its intended purpose under the funding agreement. We agree that the project
does address a long-term stormwater management issue, but this issue was not the
purpose of Recovery Act funding.
 

Sincerely  

 

Paul K. Marchetti 
Executive Director      
 
Enclosure 
cc:	    Maggie Cunningham 
        Veronica Kasi 
        Jayne Blake 
        Larry Gasparato  
        Brion Johnson 




12-R-0321                                                                                       44
                                                                             Appendix E

            PA DEP Response to Draft Report and
                     OIG Evaluation




            OFFICE OF WATER MANAGEMENT




October 31, 2011


Mr. John Trefry
US EPA Headquarters
Ariel Rios Building
1200 Pennsylvania Avenue, N.W.
Mail Code: 2421T
Washington, DC 20460

Dear Mr. Trefry:

I am writing to you in response to the US EPA Office of Inspector General Report,
“American Recovery and Reinvestment Act Site Visit of the Botanic Garden of Western
Pennsylvania.”
Funding was provided to the Botanic Garden of Western Pennsylvania. The Botanic
Garden is a non-profit entity organized to construct a large public botanical garden at an
old abandoned coal mine site. The ARRA funded project is designed to conserve water
and promote innovative use of stormwater control practices.

The three recommendations of concern in the report are:

1.	 EPA Region 3 Administrator should recover from PENNVEST all American
    Recovery and Reinvestment Act (ARRA) funds awarded to the Botanic Garden of
    Western Pennsylvania totaling $1,368,894.

2.	 EPA Region 3 Administrator should prevent the continued use of Clean Water State
    Revolving Loan Fund (CWSRF) funding for this project.

3.	 If the full Recovery Act loan amount of $1,368,894 is not recovered, reduce the
    project costs to be funded by ARRA by the amount of program income earned by the




12-R-0321                                                                                45
   Botanic Garden from mining operations and recover the amount earned in program
   income.

These recommendations are based on, what I believe to be, a misunderstanding of the
project, its environmental benefits and its fit as a CWSRF project. The report does not
acknowledge the environmental benefits of the project nor does it specifically explain
why the project is ineligible.

Please consider the following:

1.	 The report mentions the ranking framework for the project and the lack of points for
    environmental benefit. What the report does not detail is the explanation of the
    framework that my program staff provided to the OIG investigators. ARRA
    guidelines required agencies to prioritize funding based on 1) readiness of project to
    proceed to construction, 2) potential for job creation, and 3) the promotion of “green”
    infrastructure. This project met all three of the criteria.

OIG Response: During our interview with PA DEP’s Recovery Act Green Project
evaluator, he stated that he did not know the ponds would be used for mining purposes
when he evaluated the project. For a comprehensive, effective evaluation to have taken
place, such information should have been made known.

2.	 This project is designed to both conserve water and promote innovative use of
    stormwater management practices, both of which are criteria for “green”
    infrastructure. The scoring framework in place when this project was scored is
    designed for conventional stormwater projects, and did not give the environmental
    benefits of this project enough credit. PADEP has since revised our ranking
    framework for nonpoint source projects such as this, where a more accurate
    representation of the environmental and water quality benefits of this project can be
    made. Using this revised ranking framework, this project would have scored
    extremely high.

OIG Response: The Green Project criteria evaluation resulted in the project being rated
at zero points out of 100. If the criteria that resulted in the zero-point rating were not
applicable, they should not have been used for the evaluation. In addition, the project
received a -291 rating in Pennvest’s Green Project Reserve Recovery Act evaluation.
With these rankings, the OIG fails to see how this project would be a priority for
Recovery Act funding.

3.	 In addition to the surface stormwater runoff from the abandoned mine sites, there is
    an existing water quality problem at the site due to acid mine drainage from
    underground mining in the area. Robinson Run and Chartiers Creek, streams that run
    through the area, are both listed as impaired in Pennsylvania’s Integrated Water
    Quality and Assessment Report due to acid mine drainage. The current mining
    activities referenced in the OIG report are designed to remediate this impairment.
    These activities are being conducted pursuant to a permit issued by DEP under


12-R-0321                                                                                   46
   Subchapter F of the Chapter 87 Mining Regulations. This subchapter applies to re-
   mining sites with a pre-existing mining discharge where the outcome of the project
   will be an improvement in local water quality. One of the goals of the CWSRF
   program is to implement projects that address an existing water quality problem. This
   project meets these eligibility criteria.

OIG Response: We agree that one of the goals of the CWSRF program is to implement
projects that address an existing water quality problem. However, Recovery Act funds
were not provided to the Botanic Garden for this purpose. Had the funding agreement
included in the project scope remining activities to address an existing water quality
problem, then it would have accurately reflected the intended purpose of the project,
and we would not have questioned it. The funding agreement does not, however,
include this information.

4.	 The report describes a significant amount of confusion between the loan application
    submitted by the Horticultural Society, the final loan agreement, the project
    description, and the Intended Use Plan submitted to EPA, Region 3. ARRA
    guidelines required agencies to prioritize funding based on 1) readiness of the project
    to proceed to construction, 2) potential for job creation, and 3) the promotion of
    “green” infrastructure.

   In preparing the documents listed in the report the applicant, my program staff and
   PENNVEST staff focused on the “green infrastructure” characteristics of this project
   and the fact that the project was designed and ready to go to construction. We
   believed that the conversion of these sediment ponds into permanent structures to
   capture stormwater for re-use as irrigation water for the botanic gardens fit three of
   the four categories of EPA criteria for “green infrastructure” in a very consistent
   manner (water conservation, green infrastructure designed to manage and re-use
   stormwater and environmentally innovative). The fact that the applicants were also
   involved in the “remediating of the site from past mining activities” simply did not
   come up as part of our focus at the time the project reports were prepared for EPA.
   These re-mining activities are interpreted as a further benefit to the project and an
   indication of the level of commitment on the part of the applicant to complete the
   project as described.

OIG Response: We believe that Pennvest should have informed Region 3 that the
ponds would initially be used as sediment ponds. There are numerous disparities
between the project description in the initial Botanic Garden application and the final
funding agreement. These disparities concern us considering the many factors that
influence whether the project will be completed. If the project is not completed, then
Recovery Act funding was provided to build sedimentation ponds that will never be
used for irrigation purposes. As stated above, had remaining activities been included as
an intended purpose of the project in the funding agreement, the funding agreement
would have accurately reflected the intended purpose of the project. However, the
funding agreement, which is the official document we must base our review on, does
not include this information.



12-R-0321                                                                                  47
5.	 The report mentions a change order for $30,000. DEP is uncertain as to why this
    change order has been mentioned in this report. The change order was issued in order
    to stay in compliance with the CWSRF program. The program requires that all
    contracts funded with CWSRF funds must be awarded through a competitive bid
    process. Since the two stormwater management facilities were going to be
    constructed as part of the project funded by PENNVEST, they could no longer be
    constructed under a pre-existing contract the Botanic Garden of Western
    Pennsylvania had with Mashuda Corporation. Thus the reduction in monies to
    Mashuda Corporation.

OIG Response: The Mashuda change order was included in our report to show that
sedimentation ponds were to be constructed and installed as a part of Mashuda’s mining
contract. By issuing a change order and reducing the cost of Mashuda’s contract, the
Botanic Garden reduced the overall cost of reclamation and thereby increased the profit
it will make from the sale of coal extracted from the site. We believe this is important
information for our report.

6.	 Most projects funded by the CWSRF are done in multiple phases and can take several
    years to complete. Simply because of the nature of the projects constructed, there can
    be significant delays for any number of reasons, Therefore, to require an applicant to
    return program funds because the original intent of the project is not completely
    achieved in the first phase of the project or because the project is behind schedule is
    not practical. By requiring the implementation of the first two recommendations in
    this report, EPA would be setting a precedent that will significantly impair the ability,
    of many states, to implement this program in the future. Both phases of this project
    need to be completed in order to achieve the project goals. There are enough
    safeguards in place to ensure that PENNVEST will be able to require the repayment
    of funds should that become necessary.

OIG Response: Even if all phases of the project are completed, the intended purpose of
the project remains different from what was stipulated in the funding agreement. The
ponds are initially being used for mining reclamation purposes, which is not included in
the funding agreement.  

7.	 The third recommendation is based on Title 2 Code of Federal Regulations (CFR)
    Parts 215 and 230. This rule applies to federal grants made directly to non-profits.
    This is not the case here. The CWSRF grant is to the state, and the loan (not a grant)
    is to the non-profit organization through the CWSRF, not directly from the federal
    government. Therefore, this regulation does not apply to the CWSRF. In fact, there
    is no federal regulation related to the CWSRF that applies to the generation of profits
    by a loan recipient such as the Botanic Garden of Western Pennsylvania.
OIG Response: The Botanic Garden’s funding agreement with Pennvest contains an
addendum on Recovery Act requirements. The addendum states in item 19 that the
contractor must comply with all applicable laws, regulations, and program guidance,
including Office of Management and Budget Circular A-110 on Administrative
Requirements and Circular A-122 on Cost Principles, codified in 2 CFR Part 215 and


12-R-0321                                                                                 48
2 CFR Part 230, respectively. PA DEP states in its response that this principle does not
apply to the Botanic Garden; however, it is included as a requirement in the funding
agreement Recovery Act addendum. As long as the funding agreement is legal and
valid, this requirement applies to the Botanic Garden project.

In conclusion, I strongly encourage you to revisit the report and eliminate these three
recommendations. Implementation of these recommendations will have a serious
detrimental effect on the future implementation of the CWSRF program in Pennsylvania.
If you have any questions or concerns about these comments, please contact Veronica
Kasi by e-mail at vbkasi@pa.gov or by telephone at 717.772.4053.

Sincerely,



Kelly J. Heffner
Deputy Secretary


cc: 	Jean Bloom, US EPA, OIG
     Maggie Cunningham, EPA Region 3
     Paul Marchetti, Executive Director, PENNVEST
     Veronica Kasi, PA DEP




12-R-0321                                                                              49
                                                                         Appendix F

                                 Distribution
Office of the Administrator
Regional Administrator, Region 3
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Audit Follow-Up Coordinator, Region 3
Public Affairs Officer, Region 3
Director, Water Protection Division, Region 3
Chief, Grants and Audit Management Branch, Region 3
Deputy Executive Director, Pennsylvania Infrastructure Investment Authority
President, Botanic Garden of Western Pennsylvania
Chief, Division of Technical and Financial Assistance, Bureau of Water Standards and
       Facility Regulation, Pennsylvania Department of Environment Protection




12-R-0321                                                                              50
